<html>
<title> - FROM THE FIELDS TO THE FACTORIES: PREVENTING WORKPLACE INJURY AND DEATH FROM EXCESSIVE HEAT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                   FROM THE FIELDS TO THE FACTORIES:
                    PREVENTING WORKPLACE INJURY AND
                       DEATH FROM EXCESSIVE HEAT

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 11, 2019

                               __________

                           Serial No. 116-33

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                          ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
37-319 PDF            WASHINGTON : 2021  
 
 
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Lloyd Smucker, Pennsylvania
Donald Norcross, New Jersey          Jim Banks, Indiana
Pramila Jayapal, Washington          Mark Walker, North Carolina
Joseph D. Morelle, New York          James Comer, Kentucky
Susan Wild, Pennsylvania             Ben Cline, Virginia
Josh Harder, California              Russ Fulcher, Idaho
Lucy McBath, Georgia                 Van Taylor, Texas
Kim Schrier, Washington              Steve Watkins, Kansas
Lauren Underwood, Illinois           Ron Wright, Texas
Jahana Hayes, Connecticut            Daniel Meuser, Pennsylvania
Donna E. Shalala, Florida            William R. Timmons, IV, South 
Andy Levin, Michigan*                    Carolina
Ilhan Omar, Minnesota                Dusty Johnson, South Dakota
David J. Trone, Maryland             Fred Keller, Pennsylvania
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

               ALMA S. ADAMS, North Carolina, Chairwoman

Mark DeSaulnier, California          Bradley Byrne, Alabama,
Mark Takano, California                Ranking Member
Pramila Jayapal, Washington          Mark Walker, North Carolina
Susan Wild, Pennsylvania             Ben Cline, Virginia
Lucy McBath, Georgia                 Ron Wright, Texas
Ilhan Omar, Minnesota
Haley M. Stevens, Michigan

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 11, 2019....................................     1

Statement of Members:
    Adams, Hon. Alma S., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     3
     Byrne, Hon. Bradley, Ranking Member, Subcommittee on 
      Workforce Protections......................................     5
        Prepared statement of....................................     5

Statement of Witnesses:
    Cannon, Mr. Kevin, Attorney, CSP, Senior Director, Safety and 
      Health Services, Associated General Contractors of America.    31
        Prepared statement of....................................    33
    Chu, Hon. Judy, a Representative in Congress form the State 
      of California..............................................     7
        Prepared statement of....................................     9
    Bernard, Mr. Thomas E., Ph.D, Professor, College of Public 
      Health, University of South Florida........................    12
        Prepared statement of....................................    14
    Little, Mr. Bryan, Director of Labor Affairs, California Farm 
      Bureau Federation..........................................    49
        Prepared statement of....................................    51
    McCarthy, Dr. Ronda, Attorney, MD, MPH, American College of 
      Occupational and Environmental Medicine and Concentra......    40
        Prepared statement of....................................    42
    Rodriguez, Mr. Arturo S., President Emeritus, United Farm 
      Workers....................................................    62
        Prepared statement of....................................    64
    Rodriguez, Mr. Javier, Warehouse Worker, Worker Resource 
      Center.....................................................    22
        Prepared statement of....................................    24

Additional Submissions:
    Ms. Adams:
        Prepared statement and study from Public Citizen.........   100
        Questions submitted for the record 



    Mr. Byrne:
        Letter dated August 2, 2019 from the American Farm Bureau 
          Federation.............................................   124
        Letter dated August 8, 2019 from the Construction 
          Industry Safety Coalition..............................   126
    Dr. McCarthy:
        Slide: Heat-Related Illness Frequency Before and After 
          Implementation of the Heat Stress Awareness Program....   133
    Mr. Javier Rodriguez:
        Slide: Assignment Goals Per Hour Safely..................   134
        Slide: WWU Leaders David Garcia and Manolo Fernandez 
          Document 100+ Temp In NFI Warehouse....................   135
    Responses to questions submitted for the record:
        Mr. Bernard..............................................   144
        Dr. McCarthy.............................................   147
        Mr. Arturo S. Rodriguez..................................   154
        Mr. Javier Rodriguez.....................................   159


                   FROM THE FIELDS TO THE FACTORIES:

                    PREVENTING WORKPLACE INJURY AND
                    
                       DEATH FROM EXCESSIVE HEAT

                        Thursday, July 11, 2019

                              ----------                              


                       House of Representatives,

                 Subcommittee on Workforce Protections,

                   Committee on Education and Labor,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:20 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Alma Adams 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Adams, DeSaulnier, Jayapal, Wild, 
McBath, Omar, Stevens, Byrne, Cline, and Foxx (ex officio).
    Also Present: Representatives Scott, Grijalva, and Keller.
    Staff Present: Jordan Barab, Senior Labor Policy Advisor; 
Nekea Brown, Deputy Clerk; Ilana Brunner, General Counsel; Kyle 
DeCant, Labor Policy Counsel; Emma Eatman, Press Assistant; Eli 
Hovland, Staff Assistant; Stephanie Lalle, Deputy 
Communications Director; Andre Lindsay, Staff Assistant; 
Richard Miller, Director of Labor Policy; Max Moore, Office 
Aide; Merrick Nelson, Digital Manager; Veronique Pluviose, 
Staff Director; Banyon Vassar, Deputy Director of Information 
Technology; Jonathan Walter, Labor Policy Fellow; Cyrus Artz, 
Minority Parliamentarian; Courtney Butcher, Minority Director 
of Coalitions and Members Services; Akash Chougule, Minority 
Professional Staff Member; Cate Dillon, Minority Staff 
Assistant; Rob Green, Minority Director of Workforce Policy; 
Bridget Handy, Minority Communications Assistant; Dean Johnson, 
Minority Staff Assistant; John Martin, Minority Workforce 
Policy Counsel; Hannah Matesic, Minority Director of 
Operations; Audra McGeorge, Minority Communications Director; 
Carlton Norwood, Minority Press Secretary; Brandon Renz, 
Minority Staff Director; Ben Ridder, Minority Professional 
Staff Member; and Lauren Williams, Minority Professional Staff 
Member.
    Chairwoman Adams. Good morning. The Subcommittee on 
Workforce Protections will come to order. Let me welcome 
everyone who is present today. I do note that we have a quorum.
    The Committee is meeting today for a legislative hearing to 
receive testimony regarding ``From the Fields to the Factories, 
Preventing Workplace Injury and Death from Excessive Heat.'' I 
note for the Subcommittee that Congressman Grijalva from 
Arizona, a member of the full committee, and Congressman Keller 
of Pennsylvania, be permitted to participate in today's hearing 
with the understanding that their questions will come only 
after members of the Workforce Protection Subcommittee and the 
full committee on both sides of the aisle who are present have 
an opportunity to question the witnesses.
    Pursuant to Committee Rule 7(c), opening statements are 
limited to the Chair and the Ranking Member. This allows us to 
hear from our witnesses sooner, and it provides all members 
with adequate time to ask questions. I recognize myself now for 
the purpose of making an opening statement.
    Today, we are here to discuss the serious hazards of 
excessive heat exposure in the workplace and the need for the 
Occupational Safety and Health Administration, or OSHA, to 
protect American workers. We are not talking about being 
uncomfortable on a hot day. We are talking about excessive 
heat, combined with heavy clothing and high humidity that can 
incapacitate our body's natural cooling mechanisms, and lead to 
injury, organ failure, and sometimes death. This hearing will 
explore commonsense measures that employers can take to prevent 
these tragedies.
    The Bureau of Labor Statistics reports that from 1992 
through 2016, workplace exposure to excessive environmental 
heat killed 783 U.S. workers, and seriously injured 69,374. The 
problem is getting worse. And while those working in air-
conditioned offices may not notice, climate change is all too 
real for the roofer, the warehouse worker, the farm worker, and 
the highway worker who worked for 8 to 10 or 12 hours a day in 
record-breaking heat.
    According to the fourth U.S. National Climate Assessment, 
this warming trend is likely to only accelerate. The year 2017 
was the second hottest year on record, surpassed by only 2016. 
Last week, we even saw record-breaking heat in Alaska. Who 
would have ever thought that workers in Alaska would have to 
worry about the risks of heat-related illness?
    The real impact of excessive heat on our country's workers 
is tragic. Just last summer, a Florida landscaper suffered 
multiple organ failures, severe dehydration, and hypothermia, 
and died from heat stroke after using a lawn edger for 6 hours 
in 100-degree heat. Georgia farm worker Miguel Angel Gomez 
Chavez, 24, died of heat stroke after picking tomatoes in 
direct sunlight with temperatures up to 97.5 degrees. And just 
a few years ago, in my home state of North Carolina, a 56-year-
old farm worker died of heat stroke after spending 3 days 
harvesting tobacco with a core body temperature of 108 degrees.
    The good news is that we now know how to protect these 
tragedies for workers on farms, highways, construction sites, 
and other outdoor workplaces. Providing water and rest and cool 
shaded areas can save lives. And for indoor workers in 
factories and laundries and steel mills and lead smelters, 
there are practical measures that can keep workers healthy.
    These are not radical requirements, and as we will hear 
today, the U.S. Army already maintains a rigorous heat standard 
to keep our servicemembers healthy and ready to carry out their 
missions. The National Institute for Occupational Safety and 
Health has also issued workplace safety guidance and a 
recommended standard addressing excessive heat.
    And finally, three states have adopted their own heat 
protection standards. Yet, there is still no nationwide safety 
standard for excessive heat, leaving millions of workers 
without basic workplace protections. That is why during this 
hearing, we will also assess H.R. 3668, the Asuncion Valdivia 
Heat Illness and Fatality Prevention Act of 2019, introduced by 
Representative Judy Chu, who will testify today. This 
legislation will require OSHA to issue a standard within 42 
months that would mandate employers to provide both indoor and 
outdoor workers exposed to excessive heat with the protections 
they need.
    Specifically, the bill would require the implementation of 
well-organized safety measures, taking into consideration 
recommendations of the National Institute for Occupational 
Safety and Health, and ensure that the heat standards that is 
no less protective than those already in place in states like 
California.
    OSHA may object that it doesn't have the resources to 
quickly complete a standard. However, we must remember that 
Congress cut OSHA's budget for standards by 10 percent in 
fiscal year 2017, a short-sighted decrease that the Democratic 
majority is fighting to reverse. And it is currently 
squandering its scarce resources on rule-making efforts that 
roll back the protections that workers already have instead of 
moving forward on new protections that workers need.
    At its heart, this hearing is about basic workplace safety 
protections that all workers need to do their jobs. If our 
military servicemembers, arguably our toughest, most in shape 
workforce, rely on protections against excessive heat every day 
to ensure they can defend our country, then surely we can agree 
that the millions of workers who also endure intense heat to 
ensure our country runs smoothly deserve those protections as 
well.
    I want to thank the witnesses for their testimony, and 
Congresswoman Chu, thank you so much for being here. I express 
my appreciation to those who have traveled long distances to be 
with us today. I now recognize the Ranking Member, Mr. Byrne, 
for an opening statement.
    [The statement of Chairwoman Adams follows:]

 Prepared Statement of Hon. Alma S. Adams, Chairwoman, Subcommittee on 
                         Workforce Protections

    Today, we are here to discuss the serious hazards of excessive heat 
exposure in the workplace and the need for the Occupational Safety and 
Health Administration, or OSHA, to protect American workers.
    We are not talking about being uncomfortable on a hot day. We are 
talking about excessive heat, combined with heavy clothing and high 
humidity, that can incapacitate our body's natural cooling mechanisms 
and lead to injury and sometimes death. This hearing will explore 
common-sense measures that employers can take to prevent these 
tragedies.
    In fact, the Bureau of Labor Statistics reports that, from 1992 
through 2016, exposure to excessive environmental heat killed 783 U.S. 
workers and seriously injured 69,374.
    And the problem is getting worse. While those working in air-
conditioned offices may not notice, climate change is all too real for 
the roofer, the warehouse worker, the farm worker, and the highway 
worker who works for 8, 10, or 12 hours a day in record-breaking heat.
    According to the Fourth U.S. National Climate Assessment, this 
warming trend is likely to only accelerate. 2017 was the second-hottest 
year on record, surpassed only by 2016. Last week, we even saw record-
breaking heat in Alaska. Who would ever have thought that workers in 
Alaska would have to worry about the risks of heat-related illness?
    The real impact of excessive heat on our country's workers is 
tragic. Just last summer:
    A Florida landscaper suffered multiple organ failures, severe 
dehydration, and hyperthermia and died from heat stroke after using a 
lawn-edger for 6 hours in 100-degree heat.
    Georgia farmworker Miguel Angel Guzman Chavez, 24, died of heat 
stroke after picking tomatoes in direct sunlight with temperatures up 
to 97.5 degrees.
    And, just a few years ago, in my own state of North Carolina, a 56-
year-old farm worker died of heat stroke after spending three days 
harvesting tobacco with a core body temperature of 108 degrees.
    The good news is that we know how to prevent these tragedies. For 
workers on farms, highways, construction sites, and other outdoor 
workers, providing water and rest in cool, shaded areas can save lives. 
And, for indoor workers in factories, laundries, steel mills and lead 
smelters, there are practical measures that can keep workers healthy.
    These are not radical requirements. As we will hear today, the U.S. 
Army already maintains a rigorous heat standard to keep our 
servicemembers healthy and ready to carry out their missions. The 
National Institute for
    Occupational Safety and Health has also issued workplace safety 
guidance and a recommended standard addressing excessive heat. Finally, 
three states have adopted their own standards.
    Yet, there is still no nationwide safety standard for excessive 
heat, leaving millions of workers without basic workplace protections.
    That is why, during this hearing, we will also assess H.R. , the 
Asuncion Valdivia Heat Illness and Fatality Prevention Act of 2019, 
introduced by Representative Judy Chu, who will testify today. This 
legislation would require OSHA to issue a standard within 42 months 
that would mandate employers to provide both indoor and outdoor workers 
exposed to excessive heat with the protections they need. Specifically, 
the bill would require the implementation of well-recognized safety 
measures, taking into consideration the National Institute for 
Occupational Safety and Health's recommendations, as well as a heat 
standard that is no less protective than those already in-place in 
states like California.
    OSHA may object that it doesn't have the resources to quickly 
complete a standard. However, we must remember that Congress cut OSHA's 
budget for standards by 10 percent in FY17 - a short-sighted decrease 
that the Democratic majority is fighting to reverse. And it is 
currently squandering its scare resources on rulemaking efforts that 
roll back the protections that workers already have instead of moving 
forward on new protections that workers need.
    At its heart, this hearing is about basic workplace safety 
protections that all workers need do their jobs and stay safe. Each 
day, our military servicemembers--arguably our toughest, most in-shape 
workforce--rely on protections against excessive heat to ensure they 
can defend our country. Surely, we can agree that the millions of 
workers, who also endure intense heat each day to ensure our country 
runs smoothly, deserve those protections as well.
    I want to thank the witnesses for their testimony and express my 
appreciation for those of you who have traveled long distances to be 
with us today.
    I now yield to the distinguished Ranking Member, Mr Byrne for an 
opening statement.
                                 ______
                                 
    Mr. Byrne. Thank you for yielding.
    We all have a common goal of keeping American workers 
healthy and safe. When they flourish and prosper, so does our 
Nation. Safety and health in the workplace must be a priority, 
and it is important that the government work with employers to 
prevent related injuries and illnesses.
    We are here today to discuss occupational exposure to heat, 
a significant issue in many states, like my home state of 
Alabama, even beyond the summer months. I have worked with an 
industrial painting crew sandblasting storage tanks and 
painting them in the Alabama hot summer. I have worked on a 
used car lot maintaining the used cars on the car lot, keeping 
them clean, never left the car lot, in the Alabama hot summer. 
I have worked in a specialty woodworking plant making shutters. 
Even though we were inside, we can't have any temperature 
control in those type of plants. I worked there in the Alabama 
hot summer. I know something about heat exposure in the 
workplace.
    Heat exposure is currently regulated under the General Duty 
clause of the Occupational Safety and Health Act of 1970. 
Employers are already required to take definitive steps to 
protect employees and provide a safe work environment, and that 
includes preventing workers from being exposed to heat that 
results in illness.
    Additionally, as we will hear today, several states have 
taken action and created their own standards on heat illness 
prevention that reflect their own unique economies, climates, 
and workplace challenges. Heat safety should be given careful 
deliberation so that we, as lawmakers, can make educated, well-
informed decisions.
    Unfortunately, our colleagues on the other side of the 
aisle appear to be scrambling to force the Occupational Safety 
and Health Administration to impose another one-size-fits-all 
Federal mandate for occupational heat exposure. We should look 
at the history of this issue to understand where we are before 
a new national regulation is considered.
    In 2012, the Obama administration denied a petition to 
establish a heat standard. In fact, at the time, OSHA's head 
said their increased focus on enforcement and robust education 
and outreach campaigns adequately addressed the hazard. 
Nevertheless, committee Democrats are now moving forward with 
legislation to mandate a national standard without fully 
understanding if that is an appropriate and necessary course of 
action. Additionally, the majority is, once again, holding a 
legislative hearing on short notice on a bill that was 
introduced only a day before this hearing. This unfortunate 
habit, which we have seen time and time again this year, 
doesn't give members the opportunity to properly examine the 
issue or the bill text fully, and it demonstrates a lack of 
seriousness about the issue at hand.
    Before this Committee or the House rushes to mandate yet 
another Federal regulation, members should strive to gain a 
better understanding of how OSHA is currently preventing heat 
illnesses and what impact a regulation would have at the 
national level. More mandates from Washington do not 
necessarily equal better policies to help workers, and rushed 
partisan policies rarely yield efficient, effective, or 
permanent solutions. We can and ought to be working together to 
prioritize the interest of the American worker through 
thoughtful deliberation, rather than hastily written press 
relates about partisan legislation.
    Regardless of the circumstances of today's hearing, I thank 
the witnesses for being here today. I look forward to their 
testimony so that we can begin to gain a better understanding 
of how existing measures are preventing heat illness. And with 
that, Madam Chairwoman, I yield back.
    [The statement by Mr. Byrne follows:]

Prepared Statement of Hon. Bradley Byrne, Ranking Member, Subcommittee 
                on Subcommittee on Workforce Protections

    Thank you for yielding.
    We all share a common goal of keeping American workers healthy and 
safe. When they flourish and prosper, so does our nation. Safety and 
health in the workplace must be a priority, and it's important that the 
government work with employers to prevent related injuries and 
illnesses.
    We are here today to discuss occupational exposure to heat a 
significant issue in many states like Alabama even beyond the summer 
months. Heat exposure is currently regulated under the general duty 
clause of the Occupational Safety and Health Act of 1970. Employers are 
already required to take definitive steps to protect employees and 
provide a safe work environment, and that includes preventing workers 
from being exposed to heat that results in illness. Additionally, as we 
will hear today, several states have taken action and created their own 
standards on heat-illness prevention that reflect their own unique 
economies, climates, and workplace challenges.
    Heat safety should be given careful deliberation so that we, as 
lawmakers, can make educated, well-informed decisions. Unfortunately, 
our colleagues on the other side of the aisle appear to be scrambling 
to force the Occupational Safety and Health Administration (OSHA) to 
impose another one-size-fits-all federal mandate for occupational heat 
exposure. We should look at the history of this issue to understand 
where we are before a new national regulation is considered. In 2012, 
the Obama administration denied a petition to establish a heat 
standard. In fact, at the time, OSHA's head said their increased focus 
on enforcement and robust educational and outreach campaigns adequately 
addressed the hazard. Nevertheless, Committee Democrats are now moving 
forward with legislation to mandate a national standard without fully 
understanding if that is an appropriate and necessary course of action.
    Additionally, the majority is once again holding a legislative 
hearing on short notice on a bill that was introduced only a day before 
this hearing. This unfortunate habit, which we have seen time and time 
again this year, doesn't give Members the opportunity to properly 
examine the issue or the bill text fully, and demonstrates a lack of 
seriousness about the issue at hand.
    Before this Committee or the House rushes to mandate yet another 
federal regulation, Members should strive to gain a better 
understanding of how OSHA is currently preventing heat illnesses and 
what impact a regulation would have at the national level. More 
mandates from Washington do not necessarily equal better policies to 
help workers. And rushed, partisan policies rarely yield efficient, 
effective, or permanent solutions.
    We can and ought to be working together to prioritize the interests 
of the American worker through thoughtful deliberation rather than 
hastily written press releases about partisan legislation.
    Regardless of the circumstances of today's hearing, I thank the 
witnesses for being here today and look forward to their testimony so 
that we can begin to gain a better understanding of how existing 
measures are preventing heat illness.
    Thank you, I yield back.
                                 ______
                                 
    Chairwoman Adams. Thank you, Mr. Byrne. I will now 
introduce our witnesses for panel one. Our first witness will 
be Representative Judy Chu from the great state of California. 
Representative Chu has a longstanding concern about the health 
illness risk that workers face, and yesterday, introduced H.R. 
3668. I would also note that Representative Chu formerly served 
on this Committee during the 111th Congress.
    We appreciate your being here today, Representative Chu, 
and look forward to your testimony. Let me remind you that we 
have read your written statement, and it will appear in full in 
the hearing record. Pursuant to Committee Rule 7(d) and 
Committee practice, you are asked to limit your oral 
presentation to a 5-minute summary of your written statement. 
And before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on, and we can hear you.
    As you begin to speak, the light in front of you will turn 
green. After 4 minutes, the light will turn yellow to signal 
that you have 1 minute remaining. And when the light turns red, 
your 5 minutes have expired, and we ask that you please wrap up 
at that time.
    Congresswoman Chu, you may proceed.

 STATEMENT OF THE HON. JUDY CHU, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Chu. Chairman Scott, Chairwoman Adams, Ranking Member 
Byrne, and Members of the Subcommittee, thank you for inviting 
me to speak about the importance of Federal heat standards to 
protect workers. I have been passionate about this issue for 
well over a decade when I first carried a heat protection bill 
in the California legislature in 2005. I am thrilled that the 
Subcommittee is now holding a hearing on this topic.
    Yesterday I introduced the Asuncion Valdivia Heat Illness 
and Fatality Prevention Act. Asuncion was a farm worker, and 
his story was brought to me by the United Farm Workers while I 
was in the California State Assembly. It was a story that I 
could never forget.
    One day, Asuncion picked grapes for 10 hours straight in 
105-degree temperatures. Then he fell over unconscious. Instead 
of calling an ambulance, his employer, Giumarra Vineyards, 
instructed Mr. Valdivia's son to drive him back home. On the 
way home, the father started foaming at the mouth and 
ultimately died of a heat stroke. A son had to witness his 
father die, a preventable death, at the age of 53.
    I met his son. His grief was deep, especially because he 
knew that his father's death was 100 percent preventable, and 
that what the employer did was perfectly legal, despite 15 
years of farm workers fighting for protections. So I carried a 
bill in the California legislature to require water, shade, and 
rest periods to protect all outdoor workers, and I am gratified 
that thanks to my bill, California became the first State in 
the country to protect farm workers and all outdoor workers 
from the heat elements, and has now been in operation for 14 
years.
    The bill we introduced yesterday similarly establishes a 
Federal standard for heat stress protections by directing OSHA 
to adopt a final standard on the prevention of occupational 
exposure to excessive heat, both in indoor and outdoor 
environments. A number of these measures are commonsense 
precautions, like ensuring that workers who are in high heat 
environments have paid breaks and cool environments, access to 
water for proper hydration, and limitations on how long workers 
can be in high heat areas. The bill also directs the standard 
to include training for employers and employees on heat stress 
illness and prevention, and requires employers to implement 
acclimatization plans to ensure workers can adjust to their 
working conditions to reduce injury.
    Washington and Minnesota currently have heat protections 
for workers in place, and the U.S. military also has its own 
heat protection standards. It is time that the rest of the 
country's workers are equally protected.
    Working in hot conditions raises the body's internal 
temperature to dangerous levels. Without rest or cooling, 
workers suffer from heat stroke or heat exhaustion. That can 
bring on dizziness, nausea, or fainting. Eventually, their 
kidneys break down, and in just the span of one 8- to 10-hour 
shift, a worker can fall into a coma and die.
    According to a 2015 study by the Occupational Safety and 
Health Administration, exposure to heat led to 37 work-related 
deaths, and 2,830 non-fatal occupational injuries and 
illnesses. Not only do we know that this is happening each 
year, but we also know it is getting worse. Just last week, a 
new report by Moody's Analytics found that rising temperatures 
from global warming could cost the global economy as much as 
$69 trillion by 2100, thanks in part to the impact on workers' 
health. And yet, OSHA does not have a Federal standard that 
requires the breaks, shade, or water that we know can prevent 
this, and OSHA merely suggests these provisions.
    I am pleased that the Committee is taking the first 
important step to shine a light on this problem, and I hope the 
Committee will continue to move the Asuncion Valdivia Heat 
Illness and Fatality Prevention Act forward so that we can be 
one step closer to protecting workers from heat stress in all 
50 States. Thank you again for allowing me to testify on this 
important issue.
    [The statement of Ms. Chu follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Adams. I want to thank you, Congresswoman Chu, 
for taking the time to testify before the Committee today. Your 
testimony is a valuable part of the legislative record. Thank 
you so much for being here. Thank you for introducing this.
    We will now seat the second panel, and I think everybody is 
out there. We are going to take about a 5-minute break and seat 
the next panel.
    [Recess.]
    Chairwoman Adams. I will now introduce our witnesses for 
the second panel. Our first witness for the second panel will 
be Dr. Thomas Bernard from the University of South Florida, 
where he teaches occupational health and safety. Dr. Bernard's 
primary research interest is in occupational heat stress. He 
serves on the ACGIH Physical Agents Committee, and on ISO, the 
working group on the thermal environment.
    Our next witness will be Mr. Javier Rodriguez from Corona, 
California. Mr. Rodriguez is an organizer with the Warehouse 
Worker Resource Center, a non-profit advocacy organization in 
southern California. Before joining the center, Javier spent 
over 15 years as a worker in warehouses, construction, and farm 
work.
    Following Mr. Rodriguez will be Mr. Kevin Cannon. Mr. 
Cannon is Senior Director, Safety and Health Services, for the 
Associated General Contractors of America. He is currently 
Chairman of the OSHA Advisory Committee on Construction Safety 
and Health, and he has been a member of ACCSH since 2011.
    The next witness will be Dr. Ronda McCarthy. Dr. McCarthy 
is from Waco, Texas, is a medical doctor and board certified by 
the American Board of Preventive Medicine and Occupational 
Medicine. She also has a Master's degree in public health. Dr. 
McCarthy is the National Medical Director for Concentra's 
Medical Surveillance Services.
    Following Dr. McCarthy, we will hear from Mr. Bryan Little. 
Mr. Little is the Director of Labor Policy for the California 
Farm Bureau Federation, and the Chief Operating Officer of the 
Farm Employers Labor Service. He served as the Deputy Assistant 
Secretary for Occupational Safety and Health during the George 
W. Bush Administration.
    Our final witness will be Mr. Arturo Rodriguez, who is the 
recently retired President of the United Farm Workers Union. 
Mr. Rodriguez spent 45 years with the United Farm Workers of 
America, the last 25 as President, continuing to build the 
union Cesar Chavez began into a powerful voice for farm 
workers.
    We appreciate all the witnesses for being here today, look 
forward to your testimony. Let me remind the witnesses that we 
have read your written statements, and they will appear in full 
in the hearing record. Pursuant to Committee Rule 7(d) and 
Committee practice, each of you is asked to limit your oral 
presentation to a 5-minute summary of your written statement. 
And let me remind the witnesses that pursuant to Title XVIII of 
the U.S. Code, Section 1001, it is illegal to knowingly and 
willfully falsify any statement, representation, writing, 
document, or material fact presented to Congress or otherwise 
conceal or cover up a material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and members can hear you. And as you begin to speak, 
the light in front of you will turn green. After 4 minutes, the 
light will turn yellow to signal that you have 1 minute 
remaining. When the light turns red, your 5 minutes have 
expired, and we ask that you please wrap up. We will let the 
entire panel make their presentations before we move to member 
questions, and when answering a question, please remember to, 
once again, turn on your microphone.
    I will first recognize Dr. Thomas Bernard.

 STATEMENT OF THOMAS E. BERNARD, PH.D., PROFESSOR, COLLEGE OF 
           PUBLIC HEALTH, UNIVERSITY OF SOUTH FLORIDA

    Mr. Bernard. I thank you, Chairwoman Adams, and Ranking 
Member Byrne and the distinguished Members of the Committee. My 
name is Thomas Bernard, and I am a Professor of Occupational 
Health in the College of Public Health at the University of 
South Florida. I thank you for this opportunity to talk on 
behalf of heat stress.
    Over 40 years, I have had the chance to develop heat stress 
management programs over a wide range of industries. Heat 
stress is an underappreciated workplace hazard. We have all 
worked and/or played in hot environments. This common 
experience leads us to underappreciate the real risk for heat 
stress.
    Heat stress is serious when the workplace is not prepared 
to deal with it. Heat stroke, where the body's natural cooling 
mechanisms shut down, can be fatal. One fatal heat stroke with 
which I am familiar was a young high school player, played 
football. He died his first day working for a landscaping 
company in New Hampshire. Another was a roofer in Louisiana. He 
threw down his tools, drove off the work site, and died in his 
car driving down the road. Yet another was a postal worker. He 
was not prepared to deal with the heat stress after a long 
absence.
    Even if a heat stroke is not fatal, it can cause permanent 
damage to the brain, kidneys, and liver. Heat exhaustion 
sometimes leads to hospital admissions. Heat stress also leads 
to acute injuries and reduces productivity. All of these have 
costs to both employers and employees.
    By asking simple questions about the environment, like the 
temperature and humidity, about the intensity of work, and 
about the clothing being worn, interventions can be selected to 
reduce the risk for heat illness. For instance, as mentioned 
earlier, the military, which has a young and physically fit 
population, limits the work that can be done and for how long, 
depending upon the level of heat stress.
    Occupational health and safety professionals have learned 
lessons from the military. During the Deepwater Horizon 
response, OSHA and NIOSH prepared guidelines based on the 
military's for high temperatures and humidity of the Gulf 
Coast. BP provided training and specified work and rest cycles 
based on the ambient conditions. For instance, they restricted 
work to 20 minutes with 40 minutes of rest in a shaded area 
when the temperature was between 92 and 98. Considering they 
employed 50,000 unfit workers on long shifts, it is amazing 
there were few serious heat exhaustions and no heat strokes.
    The evidence about the effectiveness of interventions has 
evolved over these last 20 years. The 2016 NIOSH criteria 
document on occupational exposure to heat and hot environments 
has captured most of these lessons. It forms an excellent 
starting point for an OSHA standard. Based on the NIOSH 
criteria document and my experience, the essential elements of 
a heat stress prevention program are training to understand the 
effects and the symptoms, practices such as drinking and taking 
rest in the shade, surveillance, and having an emergency plan 
are essential.
    Other interventions that may be used as appropriate are 
engineering controls, which change the exposure conditions. 
These may be things that reduce the work demands through 
mechanization, reducing temperature and humidity and shading, 
shielding from high radiant sources.
    Administrative controls would change the way the work is 
done. For instance, allowing for progressive increases in work 
schedule to allow for acclimatization, an increased tolerance, 
or allocating work and rest cycles. There are times where 
personal protection, wearing something like an ice vest or air-
cooling systems under the clothing, will provide greater 
cooling than just simple evaporative cooling. These are mainly 
used in manufacturing or plant maintenance operations.
    Finally, training employees and supervisors to recognize 
heat-related disorders and provide appropriate first aid is 
essential. With early identification and treatment, heat stroke 
can be reversed. It is my opinion, based on my experience and 
practice, that an enforceable OSHA standard can bring 
visibility and clarity to the structure and function of an 
effective heat stress management program.
    Thank you, Madam Chairwoman.
    [The statement of Mr. Bernard follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Adams. And thank you very much.
    I will recognize now Mr. Javier Rodriguez. You are 
recognized for 5 minutes, sir.

    STATEMENT OF JAVIER RODRIGUEZ, WAREHOUSE WORKER, WORKER 
                        RESOURCE CENTER

    Mr. Javier Rodriguez. Chairman Adams, Ranking Member Byrne, 
and distinguished Members of this Committee, my name is Javier 
Rodriguez. In the past 15 years, I have had experience working 
in southern California in several industries. In these 
workplaces, I have witnessed employers neglecting workers 
affected by the heat, and even retaliated against them, not 
providing workers dealing with extreme heat with the basic 
protections, like water and rest, and generally, not take this 
issue of heat seriously.
    I am now a staff member of the Warehouse Worker Resource 
Center, the organization where my coworkers and I are receiving 
training in our rights at work. In 2011 and 2012, I worked at 
the NFI Cross Dock in Jurupa Valley, California, a facility 
moving goods for Walmart. The temperatures in Riverside County 
often go above 100 degrees in the summer when it is humid. We 
have documented the heat index at 115 degrees inside the 
containers.
    The work pace at the work Cross Dock was extremely high. 
Please look at the screen. We have a slide. This is the rate 
sheet from NFI warehouse where I work. We had to load or unload 
450 boxes per hour, boxes between 10 and 100 pounds, carry it 
up to 40 feet out to the container and to the warehouse floor, 
and stack onto the carts or pallets for 8 hours per day. You 
will have to load, carry, and stack a box container containing 
a microwave, TV every 7-1/2 seconds. I saw workers at this 
warehouse faint from the heat.
    People will feel sick and not know how to get help. Instead 
of providing the rest of us with information on how to protect 
ourselves, the company told the workers who fainted or feel 
sick and were facing heat distress to rest or go home, and told 
the rest of us keep working at the same pace of before.
    We who worked at the warehouse knew that these conditions 
were dangerous. We received training from educators and 
occupational health expert from the institutions like UCLA. We 
began to ask for clean water, education around heat, and more 
breaks. The manager refused. We ended up filing a complaint 
with OSHA in July of 2012, and the State issued serious 
citations, but the heat continued to be a problem.
    We have another display. It is a picture of some coworkers 
with thermometers inside the warehouse showing 102 degrees that 
summer. Some of us who ask for protections or who take breaks, 
we are not brought back to work. But the NFI warehouse managers 
and the staffing agency leads will constantly remind us that we 
are temps, and that there will be not work for those who speak 
up or slow down.
    The previous summer, in August 2011, at the warehouse 
operated by the same company, NFI, with the same safety manager 
about 10 miles away in Chino, a worker named Domingo Blancas 
fell ill on a hot day. He was employed by the staffing agency 
Tristate, whose solution to Domingo reporting dangerous health 
illness symptoms was to have another worker also complaining of 
the heat illness symptoms, drive him to the clinic. The clinic 
told him go to the ER, but Domingo had no vehicle and no health 
insurance. He waited for hours before his son called to take 
him to the hospital where he was treated for the heat. He was 
in the hospital for 3 days, he had surgery, and the doctors say 
that he could have died.
    With the evidence of Domingo's heat illness and NFI's 
inadequate response, Cal/OSHA cited both NFI and Tristate for 
not having an adequate injury and illness prevention plan. NFI 
and the staffing agency then spends much of the next 5 years 
fighting this case in the court, denying the clear evidence 
that Domingo had suffered heat-related illness.
    It wasn't until July 2017 that the California Supreme Court 
finally found substantial evidence that Blancas suffered a 
serious heat illness requiring hospitalization, and NFI gave up 
fighting this violation.
    The current system is inadequate. That experience led us to 
call for indoor heat standard in California which we won 
through Senate Bill 1167 in 2016. Cal/OSHA is currently working 
in this standard in rulemaking, and we hope it will go into 
effect soon. This is why we also support the legislation by 
Congresswoman Chu and Congressman Grijalva to require OSHA to 
create a heat stress standard, and thank you for your 
consideration.
    [The statement of Mr. Javier Rodriguez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Adams. Thank you. Thank you very much.
    Mr. Cannon, you are recognized for 5 minutes, sir.

  STATEMENT OF KEVIN CANNON, CSP, SENIOR DIRECTOR, SAFETY AND 
   HEALTH SERVICES, ASSOCIATED GENERAL CONTRACTORS OF AMERICA

    Mr. Cannon. Chairwoman Adams, Ranking Member Byrne, thank 
you for convening today's hearing. My name is Kevin Cannon. I 
am a certified safety professional, and the current Chair of 
the Advisory Committee on Construction Safety and Health. I am 
testifying today in my capacity as Senior Director of Safety 
and Health Services for the Associated General Contractors of 
America.
    AGC is a national organization representing more than 
26,000 businesses involved in every aspect of construction in 
all 50 states. AGC prioritizes worker safety and health, and 
regularly educates, and provides services to ensure that our 
workforce comes home safely at the end of every day.
    In my testimony, I will discuss the impact of heat exposure 
on workers, how the construction industry is proactively 
addressing heat exposure, and why a new Federal standard and/or 
law is unnecessary, unworkable, and impractical.
    According to NIOSH, workers who are exposed to extreme 
heat, or work in hot environments, may be at greatest risk of 
heat stress. Heat stress can cause injuries and illness such as 
heat cramps, exhaustion, heat stroke, and even death. But as 
you will hear today, it is preventable with proper education 
and teamwork.
    Construction contractors are keenly aware of the dangers of 
working in extreme temperatures, and have taken appropriate 
steps to reduce the risk of injuries and illnesses. These 
include scheduling work earlier or later to avoid performing 
tasks during the time of day when temperatures are the highest 
and using job-site trailers or company vehicles on remote job 
sites as cool-down areas.
    Some have taken a total wellness approach to educate their 
employees on the importance of a proper diet and properly 
managing their health, especially those with medical conditions 
who are on regularly prescribed medications. Additionally, 
contractors will routinely have toolbox talks prior to and 
during the summer months to raise awareness of the issue and 
reinforce the importance of proper hydration, being able to 
identify the symptoms of heat stress, and how to prevent it 
from occurring.
    Existing Federal agency efforts and laws already address 
heat exposure. OSHA's heat illness prevention campaign has 
reached millions of employers and workers since 2011. Under the 
OSH Act, employers are responsible for providing workplaces 
free of known safety hazards. This includes protecting workers 
from extreme heat. An employer who fails to implement measures 
to protect workers exposed to high temperatures can be cited 
under the General Duty Clause of the OSH Act. As it stands, 
OSHA already conducts inspections related to heat. This 
demonstrates the agency's continued commitment to appropriately 
enforce its laws and protecting workplace safety.
    In addition, there is no one-size-fits-all approach to 
address this issue. Climate varies from region to region, and 
what may be considered extreme temperatures in one part of the 
country could be the norm in another. Also, in considering the 
impacts of heat exposure on an individual, employers would have 
to take into consideration the age of the employee, their 
existing medical conditions, and whether an employee is taking 
certain medications. Essentially, an employer would need to 
have an individualized heat prevention program for each 
employee as an effective program would have to consider 
lifestyle habits among the workforce that an employer may have 
no control over.
    Furthermore, under the previous administration, OSHA 
determined that such a standard was unwarranted, and Congress 
should not legislate on an issue when an agency with the 
authority and jurisdiction to promulgate such standards already 
exists.
    In addition to circumventing the rulemaking process, we 
caution Congress against establishing an arbitrary deadline for 
OSHA to promulgate a standard addressing heat illness 
prevention. We also caution Congress from just drafting 
legislative text that is overly prescriptive as to warrant the 
rulemaking process useless by binding the agency to a specific 
requirement.
    The rulemaking process is intentionally deliberate to allow 
for meaningful stakeholder input. Imposing an arbitrary and 
compressed deadline could compromise the ability of the 
regulating community to fully engage in the process and the 
ability of regulators to do their job in creating the most 
feasible standard that results in the protection of workers in 
extreme temperatures. There must be a fair and transparent 
process in the promulgation of this or any rule that would 
impact a significant percentage of workplaces.
    In conclusion, AGC believes OSHA should continue to 
increase awareness by working with the regulated community to 
further promote their heat illness prevention campaign, and 
build on the success of their past efforts. OSHA should also 
consider developing clear and consistent guidance for all 
industry sectors that are impacted by hazards related to high 
temperatures. The development of such guidance could help 
identify best practices and better promote what employees and 
workers can do to prevent injury, illness, and death from 
exposure to high heat. We firmly believe that building strong 
partnerships is the best approach to realizing the desired 
results.
    Madam Chairwoman, thank you again for allowing the AGC to 
participate in today's important discussion. I look forward to 
your questions.
    [The statement of Mr. Cannon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairwoman Adams. Thank you, Mr. Cannon.
    Dr. McCarthy, you are recognized for 5 minutes.

   STATEMENT OF RONDA MCCARTHY, MD, MPH, AMERICAN COLLEGE OF 
     OCCUPATIONAL AND ENVIRONMENTAL MEDICINE AND CONCENTRA

    Dr. McCarthy. Thank you all for allowing me to -- thank you 
for inviting me to testify today. My name is Dr. Ronda 
McCarthy. I am testifying for myself, the American College of 
Occupational and Environmental Medicine, my employer, 
Concentra, a national occupational healthcare provider. We 
serve thousands of employers, and treat millions of workers 
annually. It is this extensive contact with employers and 
workers that brings me here today.
    In the past 20 years, I have treated too many workers for 
heat-related illnesses, which are 100 percent preventable. My 
testimony is grounded upon 9 years of developing and 
administering a heat-related illness program in central Texas 
that is comparable to the requirements in the bill discussed 
today.
    Because of the striking results of this program, I believe 
this bill will protect the health and lives of countless 
workers. Moreover, employers will benefit from decreased cost, 
from injuries and illnesses, and will experience increased 
worker productivity.
    I spent the first part of my career trying to convince 
multiple employers to implement NIOSH recommendations related 
to heat exposure. I unsuccessfully implored plant and health 
and safety managers to implement simple measures such as worker 
training, hydration, rest breaks, and access to shade or 
cooling to avoid costly and perilous accidents, injuries, and 
illnesses from excessive heat exposure. Some employers even 
declined my offer to simply educate workers on heat stress.
    In 2006, I became the Medical Director for a central Texas 
municipality, where I provided occupational medical care at an 
onsite employee health clinic. After noting increased 
accidents, injuries, and illnesses during the summer months in 
outdoor workers, and little to no preventive measures in place, 
I explained the benefits of a heat-related illness prevention 
program to the employer. The city manager agreed to the 
prevention program for at-risk workers in streets, traffic, 
parks and recreation, solid waste, and utilities departments.
    I used the information from OSHA's technical manual on heat 
stress and NIOSH's criteria for standard occupational exposure 
to heat and hot environments to create the city's heat stress 
awareness program. This program included hydration, access to 
shade, supervisor and worker training on heat stress and heat-
related illness, first aid and emergency response procedures, 
establishing a 3- to 4-day gradual heat acclimatization 
schedule, altered high heat work schedules, communication 
procedures, and medical monitoring of the at-risk workers.
    I then worked with two faculty members from the University 
of Pennsylvania Health System to analyze the data collected 
from the program, and here is what we found: The total number 
of heat-related cases significantly decreased after 
implementation of the heat stress awareness program, and the 
workers' compensation costs went down 50 percent for heat-
related illness.
    There are two possible factors that led to this reduction 
in workers' compensation costs. The intervention increased 
supervisors' and workers' awareness of their signs and symptoms 
of heat-related illness, and their knowledge of when to seek 
medical attention. These factors may have allowed for earlier 
medical intervention, leading to lower workers' compensation 
costs and, indeed, the last 2 years, there were no associated 
costs.
    Over the course of the program, the frequency of heat-
related illnesses decreased over the years, and by the last 2 
years, there were no reported heat-related illnesses during the 
season. Please refer to the graph displayed, which shows that 
heat-related illness cases before and after implementation of 
the program.
    Six hundred and four workers participated in the 7-year 
program. Over the 9-year study period, the odds of a worker 
having a heat-related injury decreased 66 percent in the 2012-
2014 period, and then by 91 percent for the 2015-2017 period. 
That was statistically significant. Notably, the average high 
temperatures remained consistently over 90 degrees Fahrenheit 
during the summer months over the 9-year study period.
    In light of the research presented, and my 20 years of 
experience treating Texas workers in hot environments, it is my 
expert opinion that all workers exposed to excessive heat 
should be protected by regulations mandating employers 
implement a plan to prevent heat-related injuries and illnesses 
that includes the recommendations in NIOSH's criteria for a 
standard. And the recommendations presented today, if they are 
promulgated into law, many workers' lives will be saved, and 
employers will benefit by increased worker productivity as well 
as decreased accident, injury, and illness costs.
    Thank you, and I will be happy to answer any questions.
    [The statement of Dr. McCarthy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Adams. Thank you, Dr. McCarthy.
    Mr. Little, you are now recognized for 5 minutes, sir.

     STATEMENT OF BRYAN LITTLE, DIRECTOR OF LABOR AFFAIRS, 
               CALIFORNIA FARM BUREAU FEDERATION

    Mr. Little. Good morning, Chairwoman Adams, Ranking Member 
Byrne, and Members of the Subcommittee. Thank you for the 
opportunity to testify today on heat illness. My name is Bryan 
Little, and I am here representing the California Farm Bureau 
Federation as Director of Employment Policy. I also serve as 
the Chief Operating Officer of the Farm Employers Labor 
Service, which is a subscriber organization affiliated with the 
California Farm Bureau.
    Over a 14-day period in July of 2006, California 
experienced a heat wave that caused an estimated 163 
fatalities, as many as 600 additional heat-related deaths, 
1,200 hospitalizations, and 16,000 emergency department visits 
among the state's overall population.
    Recognition that outdoor workers are potentially vulnerable 
to extreme heat prompted our state's occupational safety and 
health agency, Cal/OSHA, to adopt the first-in-the-nation heat 
illness prevention standard for employers with outdoor workers.
    Some aspects of our standard are applicable at all times in 
all seasons, particularly the requirements to provide water and 
to all outdoor activity with special requirements for certain 
industries like construction, landscaping, and agriculture when 
the temperature exceeds 95 degrees.
    Major requirements of the HIP standard for employers 
include provisions to allow employees to, at all times, get a 
cool down rest period, provide fresh, pure, and suitably cool 
water, to train employees about heat illness, and to closely 
monitor them. Farm employers have worked in good faith to 
implement these requirements, and in most cases, Cal/OSHA has 
engaged in enforcement aimed to help employers protect workers 
from heat illness.
    Workers need to understand what heat illness is, what it 
looks like, and what it feels like and how to protect 
themselves and personal risk factors, like obesity and 
diabetes, and the use of certain prescription drugs that may 
influence their vulnerability to heat illness. California 
agriculture has been forthright and proactive in addressing 
heat illness by fully accepting our responsibility as producers 
and employers to take every action we can to ensure the health 
and safety of our agriculture workforce.
    We believe the greatest need is for workers, supervisors, 
farm and labor contractors, and farm employers to understand 
the key steps to take to avoid incidents of heat illness, and 
deal effectively and promptly with incidents that occur. We 
have worked each year to identify any gaps or weaknesses in 
training, prevention, and emergency response.
    The industry has also been proactive by working with the 
University of California system and other partners to create 
and distribute information through pocket heat illness 
educational cards, Spanish language radio advertisements and 
public service announcements, newspapers, and our own 
publications to our own members. We have worked closely with 
the agency to better define the agency's expectations for 
compliance.
    The heat illness prevention standard is coming a long way 
toward achieving its goal. We in the agency have been 
successful in protecting more than 450,000 employees who work 
in California agriculture at any given time during our peak 
seasons. Compared to hundreds of fatalities that have 
historically accompanied heat waves in the overall population, 
the agency reports two occupational-related fatalities between 
2014 and 2016, one in 2017, and two last year.
    Make no mistake. Any work-related fatality is one too many, 
and it is hard to overstate what a tragedy a workplace fatality 
can be.
    I want to acknowledge the United Farm Workers efforts in 
this area and applaud Mr. Rodriguez' testimony for highlighting 
the tragic and untimely deaths of farm workers who suffer from 
heat illness. Our hearts go out to all farm employees who 
suffered an illness. We extended our deepest condolences to 
their families of those who are affected.
    I can assure the Committee the farmers want to protect all 
employees from illness because it is the right thing to do. 
Should the Department of Labor's Occupational Safety and Health 
Administration undertake a heat illness prevention program, we 
hope the agency will benefit from what we have learned 
California in the creation and refining of our heat illness 
prevention standard.
    The law will be better if it is simple, collaborative, and 
flexible. California's efforts to protect employees from heat 
illness have been most successful when Cal/OSHA has adopted a 
collaborative approach, engaging in an open exchange with all 
stakeholders, including employer stakeholders. The result has 
been a relatively simple outdoor heat illness standard non-
regulatory guidance developed with significant input from 
employers and cooperative educational programs to help the 
regulated community understand the enforcement agency's 
expectations.
    Our HIP standard has succeeded in preventing heat illnesses 
and fatalities because it is relatively simple, limited in 
scope, and general in its requirements with special 
requirements for certain industries with specific risk factors. 
Federal OSHA should follow a model that prioritizes simplicity, 
training and collaboration.
    Thank you for the opportunity to testify, and I look 
forward to answering any questions you may have.
    [The statement of Mr. Little follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairwoman Adams. Thank you, Mr. Little. Mr. Rodriguez, you 
are recognized for 5 minutes, sir.

 STATEMENT OF ARTURO S. RODRIGUEZ, PRESIDENT EMERITUS, UNITED 
                          FARM WORKERS

    Mr. Arturo Rodriguez. Chairwoman Adams, Ranking Member 
Byrne, and distinguished Members of the Subcommittee, thank you 
for the opportunity to testify today. Today, I am representing 
the United Farm Workers, and the United Farm Workers 
Foundation.
    Ultimately, though, I am here today for Maria Isabel, 
Miguel Angel, and many other workers who needlessly died due to 
heat exposure. Maria Isabel Vasquez Jimenez was 17, and an 
immigrant farm worker and pregnant. She collapsed after 
harvesting grapes in temperatures above 100 degrees Fahrenheit 
in a vineyard near Stockton. No paramedics were summoned. 
Instead, she was left in the field, and at the end of the 
workday, she was put in a non air-conditioned van that was 
hotter than it was in the vineyards.
    On the trip home, her fiance convinced the driver to take 
her to a clinic. Her strong heart failed, her body temperature 
had reached 108 degrees Fahrenheit, and she died the next day.
    Just last year, Miguel Angel Guzman Chavez, a 24-year-old 
farm worker that came to the United States under the H-2A guest 
worker program, died after picking tomatoes with a heat index 
that exceeded 100 degrees Fahrenheit. He had only been in the 
United States 5 days.
    I have the privilege of sitting here with you here today in 
an air-conditioned hearing room while farm workers like Maria 
and Miguel are toiling under the scorching sun to harvest the 
food that reaches our tables. If any of us had to spend several 
hours toiling in the high temperatures, the basic protections 
that we would need would include water, shade, breaks, and 
training to prevent heat illness tragedies. Outdoor workers 
deserve nothing less.
    Overall, there are approximately 2-1/2 million farm workers 
across the country, including hundreds of thousands of miners, 
who work in remote and rural areas. As a result of language 
barriers, status issues, and economic vulnerability, most farm 
workers won't speak out in the workplace, be adequately 
informed about heat illness prevention, or have access to 
timely medical attention when illness or injury strikes.
    The issues I speak of are not hypotheticals. The farm 
worker communities that we serve are intimately and tragically 
familiar with the dangers of heat exposure. They experience a 
risk of heat-related death that is 20 times higher than the 
risk for workers overall.
    This drove us to take action. After a string of heat deaths 
in 2005, the UFW worked with now Representative Judy Chu and 
Governor Arnold Schwarzenegger to issue the first comprehensive 
regulations in the Nation to protect farm workers and other 
outdoor workers from dying or becoming ill when temperatures 
soar.
    Later in 2015, we worked with Governor Jerry Brown to 
ensure more effective, timely, and consistent enforcement of 
State heat rules. Furthermore, the State issued strengthened 
heat regulations for all employees that work outdoors. Their 
rules require that employees are provided with fresh and cool 
water, shade be present at 80 degrees, and accommodate all 
employees on recovery or rest periods and those on-site taking 
meal breaks. High heat procedures are triggered at 95 degrees 
and ensure observation and monitoring of employees, and 
training to identify and prevent illnesses.
    And over time, we have seen the progression of the 
standards implementation in fields across California. When 
driving along Highway 99 and Highway 5 initially, all you would 
see was tarps put out there for workers in an attempt by 
employers to provide workers with shade.
    In those cases, workers would be left to sit in the dirt or 
have to bring their own blankets or portable chairs so they 
could be more comfortable during their breaks or while they 
were eating. Nowadays, oftentimes, we see many growers 
embracing the standard. Many of them, even now, have trailers 
in place that have roofs over tables and benches so workers can 
rest and sit down when eating and taking their breaks.
    The road to implementation and enforcement of the 
California State standard has not been an easy one. When 
implementation and enforcement have occurred, the standard has 
secured meaningful improvements for farm workers and resulted 
in a notable reduction in the number of farm worker deaths 
related to heat hazards.
    California is a prime example that implementing commonsense 
heat illness protections is good for workers, employers, and 
for our food system, but we did not stop and should not stop 
there. Maria Isabel, Miguel Angel, and the other heat victims 
had only one life. The only way we, the living, can affirm that 
the lives of farm workers are important and that they didn't 
die in vain is by bringing the protections we want in 
California throughout outdoor and indoor workers across the 
Nation.
    Thank you very much.
    [The statement of Mr. Arturo Rodriguez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairwoman Adams. Thank you very much, and thank you all to 
all the witnesses.
    Under Committee Rule 8(a), we will now question the 
witnesses under the 5-minute rule. I now recognize myself for 5 
minutes.
    Dr. Bernard, the testimony of Mr. Cannon from the AGC calls 
the legislation before us a one-size-fits-all bill, because 
different parts of the country have different temperatures, and 
because people are different because of age, preexisting 
conditions, drug use, and lifestyle choices. But it seems to me 
that this bill allows an employer to choose from a number of 
options to protect its workers, depending on the heat 
conditions and their workplace and the type of work that they 
do. It seems to me that as long as they seriously consider how 
to make their workers safe from excessive heat, it is more like 
a Burger King slogan, ``have it your way.'' A little heat water 
and shade if it is cool, or a lot if it is hot, air 
conditioning when it is appropriate or cooling suits when it is 
not. Dr. Bernard, would you agree?
    Mr. Bernard. I do agree.
    Chairwoman Adams. Thank you.
    Dr. McCarthy, do city employees such as those studied do 
dangerous work that places them at risk of occupational 
injuries or illnesses?
    Dr. McCarthy. Yes. They work in dangerous atmospheres. They 
use heavy equipment. They work in confined spaces and high 
places. Yes.
    Chairwoman Adams. In my state of North Carolina, State and 
local government employees are covered under a State OSHA plan, 
but I realize that 24 of the states do not have these legal 
protections in place.
    In your view, would it be a good idea to provide OSHA 
coverage for State and local government employees in states, 
such as Texas, which currently have no OSHA protections?
    Dr. McCarthy. Of course. All workers should have a place of 
employment where they do not have to risk serious physical harm 
or their life to provide for themselves and their family.
    Chairwoman Adams. Why did you decide to implement a heat 
stress prevention program for the city given that Federal OSHA 
has no jurisdiction over State and local governments in States 
such as Texas?
    Dr. McCarthy. For that very reason. These employees had 
serious heat illnesses, and it is just -- it is the right thing 
to do to protect them.
    Chairwoman Adams. All right.
    Mr. Little, your testimony concludes that the California 
outdoor heat standard has been a great success in terms of 
saving lives. I am happy to hear that. Would you be supportive 
if OSHA decided to issue a similar standard?
    Mr. Little. I think if the agency takes the kind of 
flexible and collaborative approach that Cal/OSHA took in 
originally developing and revising our standard in 2010 and 
2015, it could be a worthwhile exercise to try to do something.
    But it is going to be very important, I think, to avoid 
creating a standard that is going to be a one-size-fits-all 
standard, because our conditions in California are different 
than they are in most places. Employers in different places in 
California face different conditions and different challenges 
in providing protection for employees.
    So I would simply urge a collaborative approach to learn 
from what we learned when we went through this process in 
California.
    Chairwoman Adams. Okay.
    Mr. Cannon, you state that this bill presents a one-size-
fits-all approach because climate varies from region to region. 
I think we can all agree that climate varies from region to 
region.
    So can you tell me what burden an OSHA heat standard would 
put on an employer in a mid-region of the country where workers 
are not exposed to excessive heat?
    Mr. Cannon. Thank you for the question, Chairwoman. Sorry, 
Chairwoman. Now, your question is regarding the central part of 
America, correct?
    Chairwoman Adams. Yes.
    Mr. Cannon. I am not certain, you know -- without 
understanding what the final rule looks like, I cannot tell you 
what burdens that these employers would face. I will say that, 
you know, I think everyone on the panel has pretty much 
repeated the same approach to prevent these types of illnesses, 
which is water, rest, shade, and education.
    So, so long as, you know, these requirements are, you know, 
following those basic guidelines -- I really can't tell you 
what the impacts would be without seeing what the final rule 
would be.
    Chairwoman Adams. So give me a ``yes'' or ``no.'' I just 
have a few seconds. Mr. Cannon, you stated, referring to OSHA's 
general duty clause, the fact that current law already protects 
workers from extreme heat.
    You are familiar with the Sturgill decision by the 
Occupational Safety and Health Review Commission. So -- and 
there was a citation against an employer after a roofer died on 
the job from heat stroke after internal body temperature 
reached over 105 degrees.
    Yes or no?
    Mr. Cannon. I am, yes.
    Chairwoman Adams. Okay. Are you aware that OSHA has not 
appealed this decision so it sets a precedent for enforcing the 
heat standard? Yes or no, are you aware?
    Mr. Cannon. That OSHA appealed the decision?
    Chairwoman Adams. Right -- has not appealed.
    Mr. Cannon. Oh, has not?
    Chairwoman Adams. Yeah.
    Mr. Cannon. I am aware.
    Chairwoman Adams. Okay. And do you think, as a result, that 
workers are now more protected or less protected from heat 
hazards? Yes or no -- more or less?
    Mr. Cannon. I am sorry?
    Chairwoman Adams. Are they more protected or less?
    Mr. Cannon. I would say neither at this point. I think the 
general duty clause is still in place to enforce hazards 
related to heat.
    Chairwoman Adams. So you don't know, you don't have an 
opinion about whether it is more or less.
    Mr. Cannon. As I stated, I think --
    Chairwoman Adams. Okay.
    Mr. Cannon. -- the general duty clause --
    Chairwoman Adams. Okay. All right. Thank you.
    My time has expired. Okay. I want to recognize the Ranking 
Member of the committee.
    Ms. Foxx, you are recognized now for 5 minutes.
    Ms. Foxx. Thank you, Madam Chairwoman.
    And I want to thank our witnesses for being here today.
    Mr. Little, as you mentioned in your testimony, California 
experienced a heat wave in 2006 which prompted the State to 
implement a heat illness prevention standard. But the climate 
differs dramatically throughout the country. When it gets to be 
75 where I live, it is a heat wave.
    How should we take that into consideration when considering 
whether to impose legislatively a one-size-fits-all Federal 
regulation?
    Mr. Little. We have 26 state plan states, and the rest are 
under Federal coverage for most private employers. And I think 
that you can give those state plan states a lot of flexibility 
to be able to figure out how to go about best protecting 
workers on the basis of conditions that are unique to their 
States.
    That is why we have state plan states in the first place 
and why California opted to have its own plan, because we have 
unique conditions in California that don't exist anywhere else. 
Perhaps one of the most important unique conditions that exists 
in California is that, since we grow more food than any other 
State in the country, we employ about two out of every three 
farm workers that work in the United States.
    We also have kind of a unique climate where, unlike today 
where you can wear the air it is so humid here in Washington, 
in Sacramento it is going to be 96 degrees but the humidity is 
only going to be 20 percent. So it is going to be much more 
comfortable to work outside.
    And what kind of remedy you pursue on any given day is 
going to be different depending on what activity you are doing, 
what the weather conditions are, and just what the local 
conditions are. So I think that you can give a lot of different 
parties a lot of flexibility to be able to decide what is going 
to work best for them.
    Ms. Foxx. Thank you.
    Mr. Cannon, as you mentioned, employers are already 
required under the law to provide employees a workplace free of 
known safety hazards.
    Can you expand upon actions that OSHA is currently 
undertaking to ensure that employees are protected from heat 
illnesses? And, in your view, has the agency been effective in 
its outreach to industry and in raising awareness on heat 
illness prevention?
    Mr. Cannon. Thank you for that question.
    As I mentioned in my written as well as oral testimony, the 
heat illness prevention campaign has been a huge success. I can 
cite a handful or several AGC chapters who have taken that 
campaign and spread the word throughout their local 
memberships. And even according to OSHA's website, the campaign 
has reached millions of workers and employers.
    So I think, you know, if data were collected -- I am not 
for sure if you are familiar with their annual Fall Stand-Down, 
but I think, you know, the numbers of participants in this 
campaign itself would rival that.
    So I think they are doing a good job with spreading the 
word about what needs to be done to protect workers from, you 
know, extreme temperatures, especially heat.
    Ms. Foxx. Thank you.
    Mr. Little, in your testimony, you said that California is 
in the process of promulgating an indoor heat standard, and 
there is confusion about what is considered an indoor versus an 
outdoor environment. Can you expand upon the uncertainty in 
this area?
    Also, what lessons should we take from California's recent 
rulemaking on an indoor standard when considering whether 
Federal legislative action should be taken?
    Mr. Little. We have recommended to the agency that the 
indoor standard that they are considering should be 
considerably simplified from what they have produced so far, 
should be more similar to the outdoor standard than what they 
have created up to this point, that it should focus on specific 
industries and activities where there is significant risk 
related to heat illness.
    The warehouse work that was cited by another one of the 
witnesses today is a pretty good example of an indoor 
environment that needs to have something done about heat 
illness because of the conditions you face.
    Trying to impose a one-size-fits-all indoor regulation on 
the huge variety of indoor employers, where you have everything 
from an air-conditioned dentist's office to an un-air-
conditioned warehouse facility, trying to create a one-size-
fits-all program that will fit all those will fit none of them.
    So we would, again, strongly suggest that, should Fed OSHA 
decide to go down this road, that they learn from what we've 
learned in California while putting our standard together and 
doing what was necessary to make it work.
    Ms. Foxx. Thank you.
    Mr. Cannon, when considering new laws or regulations that 
affect the American workplace, we need to understand the full 
impact these policies would have on industries that employ tens 
of thousands of people.
    Can you walk us through how employers typically participate 
in OSHA's traditional rulemaking process? Why is it so 
important that the agency follow that process and allow the 
public sufficient opportunity for input?
    Mr. Cannon. Thank you for that question.
    Oftentimes, you know, the primary way that employers are 
engaged in the rulemaking process is the review-and-comment 
period. OSHA issues a proposal, whether it is an advance notice 
of proposed rulemaking, a notice of proposal, or request for 
information, and it gives the regulated community the 
opportunity to review what is being put out there for 
consideration and respond accordingly.
    One of the things that, you know, I have observed is that 
oftentimes some of these proposals can be complex and require 
extensive review and analysis. And I think that is where it 
takes some time and, I think, we have historically asked for 
extensions.
    And so, you know, it does take some time for employers to 
review the proposals, analyze what is being proposed, and 
respond with complete and comprehensive remarks so that the 
agency can take them into consideration.
    You know, I think the second piece that is equally 
important is giving the agency enough time to review --
    Chairwoman Adams. We have run out of time, so if you could 
--
    Ms. Foxx. Thank you, Madam Chairwoman. Thank you for your 
indulgence.
    Chairwoman Adams. All right. Thank you very much. Thank 
you.
    I want to recognize now the gentlelady from Pennsylvania, 
Representative Wild.
    Ms. Wild. Thank you, Madam Chairwoman.
    I would like to address my first questions to Mr. Javier 
Rodriguez.
    Sir, I read your testimony with interest, and it deeply 
concerned me. And I would like to ask you if you could tell us 
a little bit about the situation that actually occurred with 
your wife when she was working so that we get that on the 
record.
    Mr. Javier Rodriguez. Yes. The last year in Ontario, 
California, we had high temperatures, 110, 120. My wife work in 
the warehouse. She packaged clothes for some of the very 
important stores, like Charlotte Russe. And she starts, like, 
typical day, she starts, like, at 2:00 p.m.
    And 2 hours after she started, she started feeling bad. And 
she went with the supervisor, and then she is telling him, 
like, she feels sick, like, it is too hot, like, we need 
drinking water and take some break. And the supervisors respond 
like, oh, well, you can rest and back to work, or you feel bad, 
go home and come in tomorrow when you feel better.
    And she went back to the house. And she called me. Hey, 
Javier, I feel bad. And I said, hey, you know, like, this is a 
serious problem. Like, we need to go to the doctor. And we went 
to the doctor. The doctor diagnosed it like, oh, you have a 
stomach flu.
    So this is hard for, like, for example, my wife or another 
workers in California make some complaint or do something 
against the heat, because the doctors never give a real 
diagnosis.
    Ms. Wild. Let me ask you another question.
    Mr. Javier Rodriguez. Yes.
    Ms. Wild. So that is your wife's experience, and you 
commented in your testimony about some other coworkers or 
people that you knew in the workforce who had heat-related 
problems. Was your wife's experience in getting the doctor to 
diagnose it as being work-related typical?
    Mr. Javier Rodriguez. Yeah.
    Ms. Wild. Okay.
    Mr. Javier Rodriguez. It is typical for the workers, yeah.
    Ms. Wild. And do you know workers who have filed workers' 
compensation claims related to heat-related illnesses?
    Mr. Javier Rodriguez. Not -- no. I never hear of some of 
the workers, like, file a workers' comp complaint around the 
heat, the heat illness.
    Ms. Wild. All right.
    Mr. Javier Rodriguez. It is not easy because what I 
mentioned before. Like, the doctor diagnosis never say, like, 
oh, this is something for the heat. It is all the time, like, 
different kind of diagnosis, like, high pressure, diabetes, 
flu, so much, like in my wife's case.
    Ms. Wild. Okay.
    So let's talk for a moment about the warehouse work that 
you have done. My district in Pennsylvania is home to many 
warehouses and factories. My understanding is that you worked 
in a warehouse moving freight in and out of metal shipping 
containers. Is that --
    Mr. Javier Rodriguez. Correct.
    Ms. Wild. -- right? Can you give us some idea of how hot it 
gets in those metal shipping containers and inside the 
warehouse compared to outdoor temperatures?
    Mr. Javier Rodriguez. Yes. The warehouse doesn't have any 
air circulation. And these containers, this is small -- we have 
the small space. We load and load merchandise. And when the 
temperatures outside is, like, 100, inside the containers, 
these metal containers, it is 115, 120.
    Ms. Wild. So did they have any fans inside the --
    Mr. Javier Rodriguez. No, we don't have any fans.
    Ms. Wild. And are the containers in any way air-conditioned 
from the truck that is going to be pulling the container?
    Mr. Javier Rodriguez. No. This kind of container doesn't 
have any air conditioner, because it is a metal -- these 
containers come from China and other regions.
    Ms. Wild. So what would you do if you became overheated 
while working inside one of these metal containers?
    Mr. Javier Rodriguez. What we do is, like, go outside and 
try to drink water, rest. But like I mentioned before, the 
supervisor don't like that. Like, we need to continue work, we 
need to produce. So this is a real situation, a real problem, 
when the worker is trying to do something to feel better, like 
-- yeah.
    Ms. Wild. I would like to switch over to Dr. McCarthy.
    Dr. McCarthy, can you comment, please, on the clinical 
symptoms and prognosis of heat stroke?
    Dr. McCarthy. Yes. The clinical symptoms of heat stroke, 
usually you start with heat exhaustion, which can have 
dizziness, headache, profuse sweating, nausea. The change 
occurs when you start having neurologic symptoms, when the 
thermoregulatory system breaks down and cannot keep the core 
temperature maintained at the 98.6 degrees, give or take a 
degree --
    Ms. Wild. Can heat stroke have long-term implications for a 
person other than death?
    Dr. McCarthy. Yes. You begin to have multi-organ failure, 
and this affects the brain, liver, kidneys. And if not treated 
within 2 hours, it is a true medical emergency. You can have 
long-term chronic health symptoms related to those organs that 
are affected and/or death.
    Ms. Wild. Thank you very much.
    My time is up.
    Chairwoman Adams. Thank you very much.
    I want to recognize the Representative from Michigan, 
Representative Stevens.
    Ms. Stevens. Thank you, Madam Chair.
    And thank you to our panel of expert witnesses.
    I also happen to serve on the House Science Committee, and 
we are having a hearing today on glacier ice melt and rising 
sea levels. And this is a conversation about climate change. 
This is a conversation about what climate change is posing to 
our economy, to our people, to our workforce.
    And heat has obviously always existed in, you know, the 
United States and in the fields of work that we have heard from 
today and that are in the testimony, but the expectation that 
it is going to get worse is spot-on. And how we as a body take 
these matters seriously and for what they mean for people and 
for workers is of paramount importance.
    There is also something significant in this room, which is 
that I am reconnecting with a friend, Arturo Rodriguez, who may 
or may not remember me from the time that I picked him up from 
the airport, O'Hare Airport, in March of 2016.
    And we find ourselves yet again, my friend, in this 
important hearing. And so I would like you to be my first 
question, which is: Could you just talk to us a little bit more 
about your personal experiences, particularly in the warehouse 
lines of work, people who you have had the privilege of 
representing? We would love to get some more of that narrative, 
sir.
    Mr. Arturo Rodriguez. Well, I will leave the warehouses to 
Javier.
    Ms. Stevens. Yeah. That is Javier, yeah, but --
    Mr. Arturo Rodriguez. I will definitely talk about, you 
know, the fields. And Mr. Little made some good comments in 
regards to the situation with agriculture. The reality is, 
folks, that, I mean, the temperatures are soaring. The 
Coachella Valley, if not already, very soon it will be 115 to 
125 degrees. Workers working out there harvesting vegetables 
primarily, at this point in time, and some citrus.
    But we have to have standards. And we have seen the 
standards that have been implemented now with water, shade, and 
rest breaks. And ensuring that supervisors and foremen are 
well-trained but also that the workers really understand what 
the symptoms are has helped out tremendously to reduce the 
number of deaths and to ensure that we lower the worker 
compensation costs for the employers and ensure that there is 
better production because workers are feeling like they can 
produce in an environment where they do have the water, the 
rest, and the breaks and so forth.
    And so we are very fortunate to be able to have passed 
those regulations thanks to the hard work of Representative 
Judy Chu and others to really make that possible. And so we are 
really looking forward to this being expanded throughout the 
Nation.
    Ms. Stevens. And you might not know this, but you are a 
pride and joy of southeastern Michigan. And I am a 
Representative from southeastern Michigan, and we are so 
thrilled to have your connection to the labor movement. It is 
tied to Michigan and your time in Michigan. We know you lived 
in Michigan, in my great State.
    What is the role here of the medical professionals? And I 
kind of open this up to the panel with the remaining time I 
have left. Why have doctors not been recognizing some of these 
conditions as tied to workplace protections, particularly as it 
pertains to the excessive heat?
    Dr. McCarthy. Okay. I think it has just been under-
recognized as an illness related to the workplace because it 
does have a multi-organ effect. I think it has been under-
reported by workers. It is under-recognized as an illness by 
clinicians. And it is great that it is becoming more 
recognized.
    When it affects a certain system, such as the 
cardiovascular system or the kidneys or the liver, it gets that 
diagnosis on the chart versus the heat-related illness. Or you 
get dehydration. And I think that is why we don't get the 
recording of a heat stroke or heat exhaustion, because the 
doctor is attending to the specific system that is being 
treated.
    I hope that helps.
    Ms. Stevens. Thank you.
    Madam Chair, I yield back.
    Chairwoman Adams. Thank you very much.
    I yield to the gentleman from California, Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Madam Chair, for your 
leadership.
    And to the panel, Mr. Little, Mr. Rodriguez, particularly 
Mr. Little, it is nice to see you.
    I was Chair of the California State Senate Labor Committee 
when we were having hearings on our law and we were working 
with the farm workers. It was not always easy, I think is the 
proper way -- from my memory, Mr. Little.
    But maybe you could expand a little bit on what you and the 
employers have discovered as you have gone through this process 
and hopefully worked with the State Department of Labor but 
also with the researchers in the field and your employees on 
the benefits of it and the challenges, to be quite honest.
    Mr. Little. The challenges, I think, are mostly logistical.
    We have long had to comply with field sanitation 
requirements that require you to provide some sort of toilet 
facility, often a chemical toilet, like you find any outdoor 
chemical toilet at any outdoor event, and figure out how to 
manage the logistics of getting that to the field, getting it 
to where the workers are, getting it at the appropriate 
location so they don't have to walk too far in order to get to 
it.
    And then with heat illness it is a slightly different 
situation, because you need to have the water within -- I mean, 
the agency picked the word ``practicable'' to put in our 
regulation. And I am not sure I know how to define 
``practicable.'' Maybe it is like ``truth'' and ``beauty''; it 
is in the eye of the beholder. But the general idea is you keep 
the water and the shade as close as you can with practical 
means.
    And that gives us an opportunity to try a lot of different 
things to try to provide that shade. We invented -- I didn't do 
it, but we invented a piece of farm equipment that didn't exist 
prior to the heat illness standard, and that is the shade 
trailer. I don't know if you have ever seen one of these 
things.
    I think you might have.
    But it is basically a two-wheel trailer that you haul 
around behind a pickup truck that has two wings that unfold, 
that has a picnic table in the middle so the workers can sit on 
the benches, facing what amounts to a picnic table, eat their 
meal, their midday meal, there. You can stow personal articles 
in the trailer -- tools, water. Usually they have a rack on it 
for a 5-gallon Igloo cooler.
    But if you are already hauling the portable toilet out to 
the field, then you have to find another truck to haul the 
shade trailer or, more often than not, several shade trailers 
out to the field.
    So that flexibility in logistics, making sure you always 
have enough water on hand is something I -- when I talk to 
people about, I put a lot of emphasis on making sure you have 
worked out how you are going to make sure you have the 
requisite amount of water and give some thought to how you are 
going to do that. Don't do something like --
    Mr. DeSaulnier. This isn't a hearing about water in 
California --
    Mr. Little. Sorry.
    Mr. DeSaulnier. -- Mr. Little. You don't want to go down 
that road.
    Mr. Little. All right.
    Mr. DeSaulnier. Go ahead.
    Mr. Little. Oh, I am sorry, I just was going to make one 
last point related to that, and that is, don't make the mistake 
that I have seen farm employers make from time to time, where, 
in their zeal to try to make sure they have water out there for 
everybody, they go out and they pick up all the Igloos and they 
take them in town to Taco Bell to fill them up with ice and 
water, but you are leaving the workers that are there with no 
water while you are doing that.
    Mr. DeSaulnier. Right.
    Mr. Little. So just thinking ahead a little bit and having 
a plan for how you are going to do this can make it a lot 
easier to deal with it and make sure you provide water and 
shade for people, as you are required to do under our standard.
    Mr. DeSaulnier. Mr. Rodriguez, passing effective policy is 
one thing, but having the cultures change to see the value, 
both from the employer and the employee, how do you see that, 
as the regulation continues to be enforced, particularly in 
California?
    And, by the way, we are happy to have you in California 
from Michigan.
    Mr. Arturo Rodriguez. Thank you.
    I think it has created a situation whereby employees feel 
much more respected, feel like they are being treated as human 
beings and not as agricultural implements.
    I mean, they know what they have gone through year after 
year after year. And, unfortunately, we weren't able to get 
these regulations, to even begin consideration, until 2005. But 
I think a lot has changed over the course of the last two 
decades, and we have seen significant improvements in terms of 
what has transpired.
    And we are hopeful that there are new innovations that are 
going to come up. Like, the shade trailer was one, and I am 
sure there are going to many, many more as we look to how we 
can protect employees and how we can create a better work 
environment for them.
    Mr. DeSaulnier. And how has that improved the agricultural 
industry in California, from your perspective?
    Mr. Arturo Rodriguez. Well, one, I mean, in terms of -- as 
already mentioned by Mr. Little and as I mentioned in my 
testimony, we have seen the shade trailer come out, which, for 
the first time -- I mean, it is hard for us to imagine. Can you 
imagine sitting in the dirt eating your lunch every single day? 
And that has just changed now within the last 5 years, where 
you see shade trailers.
    So I think more and more of those types of things are going 
to come and take place and become a reality, as well as 
thinking about how do you provide cool water to folks and get 
it close enough to them when they are working in fields with 
long rows and many, many acres and so forth so that we can 
provide the immediate attention folks need.
    Mr. DeSaulnier. Thank you. Thank you, both.
    I thank the panel, and I thank the Chair.
    Chairwoman Adams. Thank you very much.
    I will now yield to the gentlelady from Minnesota, Ms. 
Omar.
    Ms. Omar. Thank you, Chairwoman.
    Over 30 million people in the United States have jobs that 
require them to work outside, according to the Bureau of Labor 
Statistics, which makes the issue of deadly heat exposure a 
very serious workplace safety concern.
    Frankly, I find it disturbing that a country like ours has 
to adopt safety standards surrounding this problem. I sit on 
another committee just across the hall, Foreign Affairs 
Committee. And there I often talk about the importance of 
upholding the same values and standards here at home that we 
are promoting around the world, and this is a perfect example 
of that.
    Just a couple of years ago, I remember the world calling 
out Qatar to establish some kind of heat exposure rules to 
protect the migrant workers dying doing construction in 
preparation of the World Cup. And so how could it be that here 
in the United States we are still lacking those standards 
ourselves?
    And this concern is only made more serious when you 
consider the climate crisis we are currently facing. Climate 
change is making extreme heat days more frequent, and it is 
bringing about record-breaking summers. And that is a trend 
that is only going to continue unless we take serious action 
and we take it soon.
    It is true that only three States here in the United States 
have established these standards. Those are California, my home 
state of Minnesota, and Washington. And so we have to make sure 
that we are doing something to standardize it for the whole 
Nation.
    So I wanted to chat a little bit about the kind of 
vulnerable communities that are in some of these workplaces.
    And to Mr. Rodriguez, you mentioned in your testimony that 
nearly 70 percent of our agricultural workforce comes from the 
immigrant communities. I believe that it is an important factor 
we need to take into consideration here, because it is no 
secret that immigrant workers, even though they are often 
facing high risk, they are high risk of injury or illness, are 
more likely to suffer in silence because of the fear of 
retaliation. The threat of violence and harassment and fear of 
having their status held against them is something that many 
immigrant workers know a little too well, regardless of what 
industry they might be in.
    And so could you, Mr. Rodriguez, share with us a little bit 
more on how the lack of strong Federal workforce regulation is 
hurting these workers particularly and how it makes an already 
vulnerable community more vulnerable?
    Mr. Arturo Rodriguez. Thank you very much for the question.
    It definitely has an impact because of the fact that, one, 
probably the percentage of immigrant workers in this country 
working in agriculture today is probably even much higher than 
70 percent; and, secondly, many of them do not speak the 
language or English, and so they are not aware of what 
regulations are, they are not aware of what the rules are, and 
so forth.
    Thirdly, there is an extremely high percentage, as many on 
the committee know, that these workers that come here to work 
in agriculture do not have legal status in our country today. 
So they are extremely fearful about the fact that many will 
hold that over their head and, ``If you don't work, then I am 
going to report you to the authorities.''
    And none of these workers that are here come here to work 
because, one, they want to improve their families, but, most 
importantly, they want to be able to provide for their 
families, and they know and they are experienced and they are 
professionals in agriculture. So, as a result, the fact that 
they don't have legal status and that oftentimes is utilized 
against them has a really severe impact.
    We are confident that, much like in California, where we 
have instituted these regulations, that if we do this on a 
national basis -- and you have done in your State already, in 
Minnesota, and Washington State -- that we will be successful 
at workers, one, being protected and, secondly, being much more 
open about the fact that these issues have to be addressed.
    Ms. Omar. And what are other proposals that you have, 
beyond just addressing the workplace, that we can address to 
make sure that these vulnerable communities don't continue to 
be vulnerable?
    Mr. Arturo Rodriguez. Well, I think in terms of, as 
mentioned already by others testifying this morning, that we 
need to figure out how to do an educational program in the 
languages that workers speak, in the language oftentimes that 
supervisors and foremen speak, so that people are much more 
aware of what is needed and so, as a result, they can take 
immediate action when they feel symptoms of heat stress and so 
forth.
    Ms. Omar. Yeah. Considering the safety of our workers 
allows us to consider their dignity and make sure that their 
humanity is intact. So I look forward to us addressing this.
    And I yield back.
    Chairwoman Adams. Thank you very much.
    Ms. Jayapal, you are recognized for 5 minutes.
    Ms. Jayapal. Thank you so much, Madam Chair.
    And thank you all very much for being here.
    We have heard today that workers are dying from heat 
exposure both outdoors and indoors in places like warehouses 
that routinely exceed 100 degrees. And we have also heard that 
many heat-exposed workers have contracted chronic illnesses, 
like kidney disease, and that medical professionals are 
concerned that there is a link between those diseases and heat 
exposure.
    In some unionized warehouses, workers already have heat 
standards. I am proud of my State for having some standards. 
For example, ILWU's Local 26 has a collective bargaining 
agreement with heat standards that protects workers in the Rite 
Aid distribution centers in the Mojave Desert.
    Before workers unionized, though, let's be clear that the 
temperatures in the warehouses were so high that a worker died. 
And across the country, despite your tremendous work, Mr. 
Rodriguez, not all workplaces are unionized, and many workers 
are suffering terribly.
    So let me start, Mr. Javier Rodriguez, with you. You worked 
in a warehouse where you faced horrific conditions, and you 
then started organizing other warehouse workers to take action. 
Thank you very much for your courage.
    When a worker doesn't feel well on a job, do the labor 
contractors or the warehouse companies do any follow-up to see 
if the worker is actually okay?
    Mr. Javier Rodriguez. Not any follow-up. Basically, the 
company don't care. Like, especially with the warehouse workers 
in our area, the majority work for the staffing agencies, and 
these staffing agencies don't have any, like, prevention plan, 
health insurance. What we say with the staffing agencies, you 
are hired in the morning, you are fired in the afternoon. So, 
basically, no, any follow-up.
    Ms. Jayapal. And so, if there is some sort of a medical 
emergency, there is really no support whatsoever to deal with 
that on the job.
    Mr. Javier Rodriguez. No. No. Because -- I don't know. 
Like, I think -- I have a lot ideas in my mind. But when you 
feel bad, what the company do is, like, ``Oh, sit down, like, 
couple minutes. When you feel better, back to work. If you 
don't feel good, like, go home. Take the day.'' So this is how 
the companies probably, like, wash their hands --
    Ms. Jayapal. Yeah.
    Mr. Javier Rodriguez. -- to take responsibility with the 
workers.
    Ms. Jayapal. Thank you.
    Mr. Cannon, let me turn to you. In your testimony on behalf 
of AGC, you state that Asuncion Valdivia Heat Illness and 
Fatality Prevention Act would be too burdensome for employers, 
if I understood your testimony.
    Do you agree that, as we have heard today, that workers are 
dying from heat-related causes?
    Mr. Cannon. We do recognize that heat is a problem in our 
industry. What we are saying is that there is no one-size-fits-
all approach to regulating the heat, especially in the 
construction industry. When you have the various trades, you 
have some --
    Ms. Jayapal. But do -- I am sorry. Let me just stop you for 
a second. You agree that death because of heat-related 
illnesses on the job is a problem in the industry?
    Mr. Cannon. Yes.
    Ms. Jayapal. Okay. And do you think it is wrong when 
workers die on the job?
    Mr. Cannon. Yes, it is wrong.
    Ms. Jayapal. Okay. And do you agree that, while some 
employers voluntarily adopt standards because they may be 
higher-road employers, do you agree that legislation should be 
focused not on the top of the barrel but on the bottom of the 
barrel, the employers that refuse to adopt standards, refuse to 
actually take action when workers are dying on the job?
    Mr. Cannon. What I think would help is better outreach. 
Ninety percent of the construction industry are employers with 
20 or fewer employees. So these are the ones that I think are 
not as informed, I will say, and --
    Ms. Jayapal. Do you think that we should wait to inform 
employers and allow workers to die while we wait for that? I 
mean, how long -- do you think one death is --
    Mr. Cannon. One death is too many.
    Ms. Jayapal. One death is too many.
    Mr. Cannon. Yes.
    Ms. Jayapal. So then why wouldn't you -- because I think 
you are an employer who has taken some precautions around this.
    Mr. Cannon. Yes.
    Ms. Jayapal. You have admitted that there are workers who 
are dying on the job. Why wouldn't you want legislation to make 
sure that every employer takes precautions as you do?
    Mr. Cannon. Regardless of whether it is the legislation or 
a regulation or standard, you still need to reach the small 
employer.
    Ms. Jayapal. Sure. But you don't you think that legislation 
gives an added push for an employer who isn't paying attention, 
is allowing for workers to die?
    Because you agreed with us that workers are dying on the 
job and that there is a problem in the construction industry. 
So why wouldn't you want to -- well, I mean, I have heard your 
answer, but why would an OSHA heat standard be too burdensome?
    Because, according to your testimony, you already encourage 
contractors to engage in safe heat-related practices. But the 
reality is they are not listening to you, Mr. Cannon. Maybe 
they would listen to the Federal Government if we actually had 
some standards around this.
    Let me just -- I guess my time has expired. I am sorry, Mr. 
Rodriguez. I was going to ask you a question. I just want to 
thank you for your decades of service on behalf of farm workers 
and people across the country who are providing such tremendous 
service every day to all of us as we eat the food on the table.
    Thank you.
    Chairwoman Adams. And thank you very much.
    Mr. Cline, you are recognized for 5 minutes, sir.
    Mr. Cline. Thank you, Madam Chair.
    Before I get to my first question that I had written down 
here, Mr. Rodriguez, you said in your answer to Ms. Jayapal 
that you were told, if it is too hot, to take a break, to sit 
down, to have some water, to take a rest, or to take the day, 
potentially, if you need to take time off?
    Mr. Javier Rodriguez. When it is too hot --
    Mr. Cline. Didn't you just say that? Isn't that how you 
responded to the question that was just asked of you?
    Mr. Javier Rodriguez. Yes, I would take the breaks.
    Mr. Cline. Okay.
    Mr. Javier Rodriguez. We forced the company to give us 
breaks.
    Mr. Cline. But the company gave you breaks. And, in fact, 
if you said you --
    Mr. Javier Rodriguez. The company don't give you no breaks. 
We force it.
    Mr. Cline. Okay.
    Mr. Cannon, your testimony is that a one-size-fits-all 
policy does not apply. But you did acknowledge that deaths due 
to heat-related illness is a problem in some States, correct?
    Mr. Cannon. I was just speaking in general. Any death, you 
know, whether it be heat-related, fall-related, is a problem in 
our industry.
    Mr. Cline. In some states, deaths related to heat are 
reduced or may not even occur because the heat is not 
excessive, correct?
    Mr. Cannon. Correct.
    Mr. Cline. Okay. So to require each state, which has 
different levels of heat, different rates of heat-related 
illness, to go through all of the plan content that is in this 
legislation, which was just given to us, I believe, yesterday -
- a plan to include hazard prevention, including engineering 
controls, administrative controls, personal protective 
equipment, local exhaust ventilation, shielding from a radiant 
heat source, insulation of hot surfaces, the provision of air 
conditioning, cooling fans, cooling mist fans, evaporative 
coolers, natural ventilation, administrative controls, rotating 
employees, scheduling work earlier or later in the day using 
work-rest schedules, personal protective equipment which may 
include water-cooled garments, air-cooled garments, reflective 
clothing, and cooling vests.
    Would you say that constitutes a one-size-fits-all regime 
that may be overly burdensome in some parts of the country?
    Mr. Cannon. I am sorry. Can you repeat that?
    Mr. Cline. All of the things I just said are part of a plan 
that has to be developed under this legislation. Would you say 
that the imposition of a one-size-fits-all solution on 
employers, large and small, no matter what region of the 
country they are coming from, would be excessively burdensome 
on some employers, whether it is in parts of the country or 
some smaller employers?
    Mr. Cannon. I think if you are requiring an employer to -- 
or prescribing an employer to implement measures that are not 
applicable to what they do, then it could become burdensome.
    Mr. Cline. Okay.
    Dr. McCarthy. May I interject?
    Mr. Cline. No.
    Ms. Chairwoman, I agree that occasional exposure to heat 
and the illnesses that result is a very serious issue, and we 
are looking to reduce and eliminate the consequences of this. 
But it is important to be mindful of the individual 
considerations and norms that States have. More mandates don't 
always equate to better practices. That is what we should be 
focused on in this hearing.
    One-size-fits-all becomes far more complicated for certain 
industries, such as truck drivers, who are changing 
environments from one place to another. And when a request was 
made in 2012 to push OSHA to issue a one-size-fits-all 
standard, the last administration denied the petition due to 
the complications and ineffectiveness that one overreaching 
standard would have.
    I look forward to discussing further potential ways that 
employers and States can work together to prevent the effects 
of occupational heat exposure, but I would warn against the 
imposition of a one-size-fits-all mandate on employers that 
would harm the economy and harm workers at the end of the day.
    I yield back.
    Chairwoman Adams. The gentleman yields back.
    All right. I want to officially welcome Mr. Keller of 
Pennsylvania to the Committee on Education and Labor.
    And, Mr. Keller, I now recognize you for 5 minutes.
    Mr. Keller. Thank you, Madam Chair.
    It is an important issue when we are talking about safety 
of the people that work in the United States. I was in private 
industry, and I was also in State government. And I guess I 
would have a question for Mr. Little.
    When we are looking at Congress trying to implement a one-
size-fits-all approach, being the diversity of our Nation and 
the working conditions from California to New York and from 
Maine to Alabama, do you feel it would be best to let this 
decision up to the States, have OSHA work with the States and 
let it up to the States to determine what might work best to 
protect the workers in those areas?
    Mr. Little. Twenty-six states have state plans, and they 
have the legal capacity to be able to promulgate standards, 
just like California did. Some may choose to do so, as some 
have already have, and some may choose not to. Some may choose 
to rely on what may be in their law already.
    In the Federal law, we have the General Duty Clause. In 
California, we have an injury and illness prevention plan 
requirement. They are kind of analogous, because if your injury 
and illness prevention plan doesn't cover the hazards that you 
actually have in your workplace, then you need to modify it and 
take those hazards into account. Heat is obviously one for 
outdoor workers.
    So there is usually more than one way to fix a problem, 
depending on what the problem is. And I think, to the extent 
that you give people flexibility and space to be able to figure 
out their problems, whether or not -- whether it is Federal 
OSHA perhaps doing a standard at some point or the way we went 
about doing our standard in California, where we talked to all 
the stakeholders, including employers who have to actually 
implement whatever it is the regulation comes up with, is going 
to be very important to create something that you can actually 
make work on the ground in the real world.
    Mr. Keller. Okay.
    As far as the California standard, has there been any 
enforcement or audits of the California standard with any of 
the employers?
    Mr. Little. There has been quite a bit of enforcement 
around our heat and illness prevention standard, yes.
    Mr. Keller. Okay. And has that been working out well for 
the people that work in California?
    Mr. Little. Sometimes -- I think we accomplish more when we 
undertake the education than we do when we undertake 
enforcement, some types of enforcement, where you are 
penalizing an employer for failing to have a written copy of 
the program at each individual work site.
    For agricultural employers, probably for construction 
employers too, you could have dozens of active work sites on 
any given day. If someone forgets a piece of the notebook they 
carry with them that happens to be their heat and illness 
prevention plan, the person who is in charge of safety for the 
company knows how to implement it, knows how to direct others 
to implement it, but if you don't have that copy of that plan 
at each individual work site, that is a violation of our 
standard.
    I understand you want to educate people, and maybe part of 
education is making that available. But what harm occurs if you 
don't have that, and why are you penalizing that employer? I 
think the penalty is $7,500 for failing to do that. So there is 
a right way and wrong way to do a lot of different things. I am 
not sure that penalizing people for paperwork violations is 
constructive.
    Mr. Keller. Well, I guess I would have a question, then, 
because I come into mind, in Pennsylvania, we have PennDOT, 
which is the Department of Transportation, and a lot of times 
they have flaggers out when there is construction work. And it 
is hot and so forth. I imagine California's Department of 
Transportation does the same thing for road construction. Would 
they fall under the same enforcement rules as the farmers, the 
agriculture community, landscapers?
    Mr. Little. To the best of my understanding, yes, they do.
    Mr. Keller. They do. Okay.
    Do they have the plans -- or how do they do it? I guess 
that might be a way to look, how the government -- are you 
aware of how the government makes sure that there is a plan in 
place for that worker that is standing on a highway as the 
flagger? How do we take care of them and make sure they do 
their paperwork?
    Mr. Little. I don't know. I have never worked with them, so 
I don't know what they do.
    Mr. Keller. I think it would be incumbent upon Congress to 
make sure we understand that we are protecting all the workers 
and we are not putting some regulations on private industry. 
And we need to make sure everybody is safe. And I think going 
about this from Congress rather than letting the states do it, 
I think we are probably creating some unintended consequences 
for the workers and for the States in order to enforce a good 
policy.
    I yield back my time. Thank you, Madam Chair.
    Chairwoman Adams. Thank you.
    I now recognize the gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you, Madam Chair. And thank you very 
much for the hearing. Much appreciated.
    Dr. McCarthy -- and Dr. Bernard, if you want to also chime 
in -- it is not only here, but every time that there is a 
discussion about promulgating a regulation or a rule around 
worker protections, we get the one-size-fits-all 
counterargument and also what I heard from one of the 
witnesses: We will be forced to do individualized plans for 
each worker.
    Respond to that. Because we are talking about standards 
here as the guardrails to protect workers. Talk about the 
argument that we can't do this because one-size-fits-all does 
not work.
    Dr. McCarthy. There are many OSHA Federal standards for 
hazardous exposures, such as asbestos, lead, and the list goes 
on, and they are not a one-size-fits-all for all employers. 
They have action levels, permissible exposure levels, ceiling 
limits. NIOSH has recommended action levels and exposure 
levels. And so, just like the weather, the NOAA has a chart 
where you calculate heat index, what temperature, OSHA also has 
a standard.
    So it is not -- if the employer does not fit in that heat 
and temperature, we also have, for indoor workers, wet bulb 
globe temperatures. And this takes into account four different 
measures for heat, so you can apply it equally among outdoor 
and indoor workers. Because, as Mr. Rodriguez said, the indoor 
can be much higher than even the outdoor worker.
    Mr. Grijalva. Thank you very much.
    Any addition to that?
    Mr. Bernard. Yes. Thank you for asking.
    I feel, far from it being a one-size-fits-all, I really 
think it is a menu of options. There are things that we do that 
are kind of transcendent through any jobs. And we talked a bit 
about that in terms of the education and the drinking and 
surveillance. So those are common elements. How you execute 
them are individual.
    Then we talked about a long list of others that really are 
very much, does it apply to the particular workplace?
    With regard to people with individual susceptibilities, 
most of the guidance for occupational exposures are 
acclimatized, healthy people. It is the reason why you want to 
have a good emergency plan to take those other people who may 
be individually at risk --
    Mr. Grijalva. Gotcha.
    Mr. Bernard. -- that fall out.
    Mr. Grijalva. Appreciate that.
    Mr. Arturo Rodriguez, good to see you again, my friend. We 
talked a lot about Cal/OSHA. Would employers be providing 
water, rest, shade, and innovations that we see now in 
California had Cal/OSHA not been implemented or passed?
    Mr. Arturo Rodriguez. No, I don't believe so. I mean, as 
mentioned earlier today by Mr. Little, 26 States, I believe, do 
have the opportunity to employ some type of standards as we 
have been discussing here today and only 3 have done so.
    So I think it is incumbent upon OSHA to really take action 
on a Federal basis to ensure that we do have standards set 
across the country.
    Mr. Grijalva. Yeah.
    Farm workers, many times, are paid on the piecework, and 
many farm laborers are on a piecework basis. They could lose 
pay for taking shade and rest breaks. How are they compensated 
within Cal/OSHA?
    Mr. Arturo Rodriguez. So my understanding is and the way 
that we have chosen to do it in the State of California has 
been -- and piecework is very common there -- that they will 
take the average of the hours worked during the week and look 
at the wage that they have earned and average it out, and that 
becomes the hourly rate for the worker to be paid, whatever 
break time that they took.
    Mr. Grijalva. Cal/OSHA -- again, another question. Would 
the agency have taken the initiative to adopt the heat illness 
prevention standards if the legislature had not passed a bill 
that mandated that?
    Mr. Arturo Rodriguez. In our opinion, no, they wouldn't 
have.
    Mr. Grijalva. You know, one of my colleagues mentioned the 
point about climate change. And, yes, that is part of the 
discussion. Everything is warming. The globe is warming. We can 
have that debate some other time. And I know it will be an 
intense debate about what we do about climate change in this 
Congress.
    But, nevertheless, this is not part of that debate. This is 
about worker protection, regardless of the source of the heat, 
regardless of the exposure. And we should deal with that on 
that level, because, yes, climate change is part of it, but 
this is the easy part that Congress faces in dealing with this 
issue.
    I yield back and thank you again, Madam Chair.
    Chairwoman Adams. Thank you.
    I want to now recognize the Ranking Member of the 
Subcommittee, Mr. Byrne from Alabama.
    You have 5 minutes, sir.
    Mr. Byrne. Thank you, Madam Chairwoman.
    Mr. Cannon, I know a lot of contractors in Alabama. I think 
most of them are your members. And they tell me, to a person, 
that they are having a hard time finding workers. So they are 
doing everything they can to attract workers, and once they get 
them, they are doing everything they can to keep them.
    I wouldn't think it would be positive to attract workers 
and certainly to keep them if you are exposing them to an 
unhealthy environment. So I would think most of your members 
are doing what they know to do to try to make sure that they 
maintain a healthy environment, including one involving heat. 
Is that correct?
    Mr. Cannon. That is correct. You know, our members are 
encouraging their workers to report any and all hazards, 
including heat-related hazards. They ask them to report any and 
all injuries and illnesses regardless of what the source of the 
injury and illness was. I think, as you pointed out, you know, 
trying to keep workers and keep the positive image of the 
industry is very important to us in attracting new talent to 
the industry.
    So, you know, they are committed to the safety of their 
workers. They give them the authority to stop work if they 
encounter a situation that they deem to be unsafe and discuss 
it and come up with a plan to complete their task in a safe 
manner.
    Mr. Byrne. Well, you also said something earlier that I 
think is very important. Most of your members -- and, in my 
State, most employers, period -- are not big companies. They 
are smaller operations. So what can we do, what can government 
do, to help them accomplish what they want to accomplish, which 
is a safe workplace, particularly with regard to this heat 
issue?
    Mr. Cannon. Very good question, but I think that definitely 
presents a challenge. I think we struggle with trying to reach 
that demographic of our membership. I know, you know, OSHA as 
well as NIOSH, they have continued discussions as to how they 
can better reach the small employer.
    So, I mean, I don't have a solution or a recommendation, at 
this point, as to how we can get to that group of employers. 
But I definitely think, if we are able to reach them on, you 
know, heat or whatever else, you know, safety-related matter 
there is, I think we will definitely make improvements and good 
strides in that area.
    Mr. Byrne. Mr. Little, some advocates for a national 
occupational heat illness standard push for very specific 
requirements such as maintaining water at a specific 
temperature.
    Does it make sense for the Federal government to prescribe 
such specific rules? And is it even possible to meet some of 
these requirements in an outdoor environment?
    Mr. Little. I don't think that trying to be that specific 
with standards that you are required to meet for a heat illness 
prevention standard really makes a lot of sense.
    We had debate around that in -- I think it was 2012, about 
whether or not the agency should specify a temperature for 
drinking water. What we settled on was that the water should be 
palatable, that the whole point of the exercise was to place 
shade in a place where workers will use it, to provide water 
that is of a quality and temperature that workers will want to 
drink it.
    The regulation leaves employers some leeway to figure that 
out, and I think that is a very practical solution to that 
problem.
    Mr. Byrne. Well, one of the things that concerns me is 
that, when we start to put down these big national standards, 
it is very difficult to do it without it being one-size-fits-
all. You start down the path, and it is like you can't help but 
go where you are going.
    Is it possible to create a regulation that would allow for 
the flexibility that we would need in order to make an 
effective applicable regulation to the entire country? Can we 
achieve that level of flexibility in a national regulation?
    Mr. Little. That is a difficult question to answer. I don't 
know. I don't think you can if you don't listen to the 
regulated community and talk to them about what they can 
actually do in the real world. That is what Cal/OSHA did, and I 
think that is probably the right approach if you are going to 
go down that road.
    Mr. Byrne. Well, I think that is another good point that 
you have made, and that is that this has to be a collaborative 
effort between employers, OSHA, but also employees. Because if 
you get a regulation that is too onerous to comply with, then 
you won't get the employees to do what they need to do, because 
employees have to play their role.
    So we have to have everybody involved in this, and it takes 
time to do that, doesn't it?
    Mr. Little. Oh, yes, it does. We have been working on it 
for 15 years.
    Mr. Byrne. Fifteen years. I think Ms. Chu's bill would 
require us to get this done in 2 years on a national basis, 
when you all did it on a State basis.
    So I guess I have some concerns about the bill just in the 
fact that it puts these sort of arbitrary, false time 
limitations on our ability to get all the stakeholders to the 
table so we can listen to all of them.
    And, with that, Madam Chairwoman, I yield back.
    Chairwoman Adams. Thank you, Mr. Byrne.
    I am pleased to recognize the gentleman from Virginia, the 
Chair of the Education and Labor Committee, Mr. Scott.
    You are recognized now for 5 minutes, sir.
    Mr. Scott. Thank you, Madam Chair.
    Dr. Bernard, NIOSH and OSHA already have recommended 
standards. Is that right?
    Mr. Bernard. They are both active in providing information 
about managing heat stress. So I stayed away from the word 
``standard'' a little bit.
    Mr. Scott. They have recommendations.
    Mr. Bernard. They have recommendations, yes.
    Mr. Scott. And they can't be enforced because they are just 
recommendations, not formal rules. Is that right?
    Mr. Bernard. That is correct.
    Mr. Scott. How difficult would it be to change the 
recommendations to rules? How complicated would it be to 
implement?
    Mr. Bernard. No, I believe the groundwork has already been 
laid between the criteria document of NIOSH and their online 
activities.
    Mr. Scott. And for businesses, how complicated would it be 
to implement what would then be regulations?
    Mr. Bernard. My experience is that it is not that 
complicated to work with a company to implement a heat stress 
management program.
    Mr. Scott. Is it expensive to implement, including the lost 
productivity?
    Mr. Bernard. I don't believe that it is expensive. It is, 
you know, on the order of implementing any other health and 
safety program. It is not extraordinary in that regard.
    I think you have picked up that there are costs of 
accepting those risks of heat-related disorders that need to 
also be included.
    Mr. Scott. The military has implemented programs for a long 
time. Has there been any research to show how effective that 
program has been?
    Mr. Bernard. There has been some research over the years 
that has convinced the military to continue doing it. And that 
is up to the most recent paper I saw recently, where, during 
Ranger training, they actually provide cooling stations, where 
they immerse their arms in ice water to reduce their body 
temperature as they move on to their next activity.
    Mr. Scott. Thank you.
    Dr. McCarthy, from a medical perspective, is this a 
situation where you can know that you are getting into problems 
and stop working or get into shade? Or is it a situation where, 
by the time you get symptoms, it is already too late?
    Dr. McCarthy. Heat strain has symptoms that can identified. 
Workers can be trained to recognize those symptoms. If they are 
not trained, sometimes they just feel like they are just having 
a bad day or, you know, just nondescript, headache, dizziness, 
nausea. And if they are trained that if it is hot and they are 
having those symptoms, they need to drink water, go into shade 
or a cooled area, and rest, and that can help avert more 
serious illness.
    But if they go on to more severe symptoms, such as heat 
stroke, it can have neurologic symptoms, where they can lose 
the inability to think for themselves. And that is why 
communication procedures or buddy systems are so important, 
because they may not be able to take themselves out of that 
situation.
    Mr. Scott. Now, you showed the number of incidents from the 
twenties down to zero in the city. Can you translate that into 
cost savings of workers' compensation?
    Dr. McCarthy. Yes. We showed that -- well, the last 2 
years, we had no heat-related illnesses, so, therefore, no 
cost. But per heat-related illness, we had a reduction to 50 
percent prior to implementation of the program.
    And we believe that was due to workers understanding what 
their signs and symptoms were and, therefore, seeking medical 
attention earlier and, therefore, getting treatment earlier, so 
having a less severe illness to treat for those workers.
    Mr. Scott. And did the cost savings exceed the cost of 
implementing the program?
    Dr. McCarthy. I do not have that data.
    Mr. Scott. And I think you wanted to make a comment on a 
previous question. Did you want to make that comment now?
    Dr. McCarthy. Oh, I was able to answer it at a previous -- 
but, basically, I do not feel it is a one-size-fits-all. I feel 
like the recommendations, if implemented today, can be 
administered to employers on a graduated basis, depending on 
the circumstances of the employee, depending on the temperature 
levels, what the employee's work environment is and their job 
description. And it has been used in the military successfully, 
this program, successfully.
    Mr. Scott. Thank you, Madam Chair.
    Chairwoman Adams. Thank you.
    Thank you for your responses.
    I want to remind my colleagues that, pursuant to committee 
practice, materials for submission for the hearing record must 
be submitted to the Committee Clerk, preferably in Microsoft 
Word format. The materials must address the subject matter of 
the hearing. Only a member of the committee or an invited 
witness may submit materials for inclusion in the hearing 
record.
    Documents are limited to 50 pages. Documents longer than 50 
pages will be incorporated into the record via an internet link 
that you must provide to the Committee Clerk within the 
required timeframe. But please recognize that years from now 
that link may no longer work.
    Again, I want to thank the witnesses for their 
participation today. What we have heard from each of you is 
very valuable.
    Members of the Committee may have some additional questions 
for you, and we ask the witnesses to please respond to those 
questions in writing. The hearing record will be held open in 
order to receive those responses.
    I remind my colleagues that, pursuant to committee 
practice, witness questions for the hearing record must be 
submitted to the majority committee staff or Committee Clerk 
within 7 days. The questions submitted must address the subject 
matter of the hearing.
    I now want to recognize the Ranking Member for his closing 
statement.
    Mr. Byrne. Thank you, Madam Chairwoman.
    Thank you all for being here. That was very interesting. I 
learned a lot. You all have a lot to offer us as we consider 
what we are going to do here.
    Mr. Rodriguez was talking about workers sitting on the 
ground eating their lunch. I remember doing that in the 
summertime, and it is hot. And it is hard to get the rest you 
need from your working environment when you are not in the 
shade. And probably sitting on the ground is probably not good 
for you either. I didn't have a pickup truck, so I couldn't sit 
on the back of a tailgate, so most of us sat on the ground.
    I do worry about workers. And when I drive by them in 
Alabama in the summertime and I see them working on a roof or 
out there doing a road job out there in the sun, asphalt, it is 
hot. But I know these employers, and they don't want those 
workers to get sick. It is not good for them for their workers 
to be sick. But they need our help to understand what they can 
do, and we need to figure out a better way to give them the 
information that they need.
    OSHA has the general duty standard, and they enforce under 
the general duty standard. In fact, they enforce on heat-
related illnesses under the general duty standard.
    Perhaps that is why, in 2012, the Obama administration, 
which was not known for being pro-employer, denied the petition 
to establish a heat standard. In fact, at that time, OSHA's 
head said their increased focus on enforcement and robust 
education on outreach campaigns adequately addressed the 
hazard.
    Now, I would like to hear from OSHA. That is what they said 
in 2012. If we are going to consider a piece of legislation 
that is going to force them into a sort of arbitrary timeframe, 
et cetera, I would kind of like to hear what OSHA says about 
this. Because, after all, they are going to have to be the ones 
to implement it if we pass it.
    I also think that we need to hear from people who have more 
experiences like we heard here today from the folks from 
California. That would be helpful for us to understand how has 
this worked in other places.
    I think that we need to be very careful in Congress, when 
we start legislating an area like this, that we pass the law 
that we perhaps pass most frequently around here, and that is 
the law of unintended consequences. Because you can enact a 
very prescriptive statute, and you get exactly that: unintended 
consequences that make it difficult, if not impossible, for 
employers to comply with it. And worse than that, it makes it 
very difficult for the employees to get the help that they 
need.
    I remember working on the job. When you have all that 
safety stuff, the burden still falls on the employee to comply 
with the rules. And if we put too much rules on the employees, 
they won't do it even though they are required to do it by 
their employers.
    So I want us to be very, very careful here. I am skeptical 
about a two-year timeline in Ms. Chu's bill. I think that is 
way too short, particularly given the California example. And I 
think we need to think long and hard before we prescribe a 
bunch of things in a statute directed at an agency about how 
they are going to carry out their job, because I am not sure we 
know enough to do that.
    So I really do appreciate everybody's testimony today. This 
is an important issue, there is no question about it. I just 
hope that this committee will go about its job in a very 
thoughtful and deliberative way and that we consult with the 
agency before we do anything.
    With that, Madam Chairwoman, I yield back.
    Chairwoman Adams. Thank you, Mr. Byrne.
    I now recognize myself for the purpose of my closing 
statement.
    Let me again thank the witnesses for providing us with 
valuable expertise. I think that I speak for all of the Members 
of the Subcommittee when I say that we learned an enormous 
amount of valuable information from each of you today.
    We have heard compelling evidence about the serious and 
often deadly hazards that millions of workers face in this 
country from uncontrolled exposure to excessive heat. But the 
good news is that we know these deaths and illnesses can be 
prevented. The science and practice have proved the 
effectiveness of these measures. Now, workers await only action 
from OSHA to make sure that these protective measures are 
implemented. Passage of H.R. 3668 will go far toward 
establishing and accomplishing that goal.
    But even with the progress we hopefully are making, we are 
reminded again of the larger structural problem within the 
Occupational Safety and Health Act. Even if this bill becomes 
law and OSHA issues a heat standard, public employees in 24 
States will receive no protection because they are not covered 
by Federal OSHA. As the committee continues its critical 
oversight of the Occupational Safety and Health Act, we look 
forward to addressing some of these serious weaknesses.
    And before I conclude, I ask unanimous consent to insert 
into the record testimony from Public Citizen, ``Public Law and 
Climate Disasters from Occupational Health and Safety Law'' by 
Sidney Shapiro and Kathleen Tracy.
    Without objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    [Additional submissions by Mr. Byrne follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Additional submission by Dr. McCarthy follows:]89
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Additional submissions by Mr. Javier Rodriguez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
 
    
    [Additional questions for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Adams. If there is no further business, without 
objection, the Committee stands adjourned.
    [Whereupon, at 12:26 p.m., the Subcommittee was adjourned.]

                                 <all>
</pre></body></html>
